Inspectors General
U. S. Department of State and
U.S. Department of Defense




Interagency Assessment of
Iraq Police Training
July 15,2005

Department of State
Report No. ISP-IQO-05-72


Department of Defense
Report No. IE-2005-002
                                       PREFACE

        T h i s r e l p o a w m ~ b y t h e O E E i c t s o f ~ r ~ o f t h e ~ ~
of State tlnd Def- pursuant to the hpctw G e n d Act of 1978, as amended.

        The report assesses tbe strengths and wegknessa of U.S. government pmgmms ta
train @I police* It is b a d on analysis of data, intenriews with officials, instructm,
and habees, and d h c t ohmation of training at relevant institutions in Jordan and Iraq.
The joint StatelDoD team rrtet with top d h y emmandm responsible for W g ,
OM           S Baghdad, srnd Trqi officials including the Minister of the Interim.
         at Embassy

        Remmmtddons in the report are based on the b t knowlei@ available to the
Oftias of Inspectors G e n d and have been dkussed with those responsible for
imphentation. It is our hope that these recommendations will result in more effective,
efficient, and economical ogmdions.

        We q p c k the mopmiion of rrllthose who contributed to the pepadon of
tbia report.
                                                     R
Table of Contents

Executive Summary                                                          1
Chapter 1. Policy Issues                                                   9
      The Problem with Numbers                                             9
      Training to Iraqi Perceived Needs                                   11
      The Question of Sustainability                                      14
      Building Leadership                                                 15
Chapter 2. The Training Process                                           19
      Recruiting and Selecting Trainees                                   19
      Vetting Prospective Trainees                                        22
      Basic Training                                                      24
      Revising the Basic Police Training Curriculum                       25
      Transition Integration Program                                      26
      Specialized Training                                                27
      Advanced Training                                                   30
      Ad Hoc Training/Individual Initiatives                              31
Chapter 3. Post-Training Issues                                           33
      Measuring Results                                                   33
      Leakage: Trainees Who Do Not Enter Police Ranks                     33
      Police Partnership Programs                                         34
      Equipment and Readiness                                             35
      Mentoring                                                           37
Chapter 4. Looking Ahead                                                  39
      Whither the Jordan International Police Training Center             39
      Guiding the Ministry of Interior on Target                          42
      Intra-USG Relationships                                             43
      Toward Disengagement: Transitioning Police Training to the Iraqis   45
      Future U.S. Involvement in Police Training                          47
Chapter 5. Informal Recommendations                                       49

List of Appendixes
        A    Scope and Methodology                                        53
        B    History and Background of Iraqi Police                       55
        C    Principal Interlocutors—Organizations Visited                59
        D    Acronyms                                                     61
        E    National Security Presidential Directive 36                  63
        F    Report Distribution                                          67
        G    Iraq Reconstruction Management Office (IRMO–MOI)
             Comments                                                     69
        H    Civilian Police Assistance Training Team (CPATT) Comments    73
        I    International Civilian Investigative Training Assistance
             Program (ICITAP) Comments                                    83
        J    Team Members                                                 95




                                            i
Page intentionally left blank




            ii
Executive Summary

Purpose of this Assessment

     The Inspectors General of the Departments of Defense and State established an
     interagency IG Team (IG Team) to collaborate on this management and program
     assessment of the Iraqi police training program.

     The purposes were to:

        •   evaluate the U.S. government funded (appropriated funds) programs in
            accomplishing the training and equipping of the Iraqi Police Service (IPS), and
        •   examine the effectiveness of coordination and cooperation between Department
            of State (DoS) and Department of Defense (DoD) activities for developing,
            implementing, and conducting training for the IPS.

     National Security Presidential Directive 36 (NSPD–36) stipulates the responsibilities for
     U.S. Government operations in Iraq after the June 28, 2004, termination of the Coalition
     Provisional Authority (CPA). The directive states, in part:

            “Commander, USCENTCOM, under the authority, direction and control of the
            Secretary of Defense, shall continue to be responsible for U.S. efforts with
            respect to security and military operations in Iraq . . . . The Secretary of State
            shall be responsible for the continuous supervision and general direction of all
            assistance for Iraq. Commander, USCENTCOM, with the policy guidance of
            the Chief of Mission, shall direct all United States Government efforts and
            coordinate international efforts in support of organizing, equipping, and
            training all Iraqi security forces. At the appropriate time, the Secretary of
            State and the Secretary of Defense shall jointly decide when these functions
            shall transfer to a security assistance organization and other appropriate
            organizations under the authority of the Secretary of State and the Chief of
            Mission . . . .”

     To carry out the responsibilities directed by NSPD–36, DoD created the Multinational
     Security Transition Command–Iraq (MNSTC–I) under the overall direction of
     Commander, Multinational Force–Iraq (MNF–I). MNF-I’s Civilian Police Assistance
     Training Team (CPATT) manages the IPS training program. While DoD has primary
     responsibility for security operations in Iraq, including training of security forces,
     historically the DoS is responsible for security assistance in nation building operations.
     The DoS Bureau of International Narcotics and Law Enforcement (INL) possesses the
     institutional experience in training police forces and, therefore, was tasked, even before
     NSPD–36, to develop an appropriate training program for the Iraqi Police Service.
Scope

         The Departments of Defense and State share oversight responsibilities for U.S.
         Government-funded training of the Iraqi police. In October 2004, the Inspectors
         General of the DoD and DoS initiated this interagency project to fully examine the
         processes and organizational relationships associated with the training of the Iraqi Police
         Service (IPS).

         From October 2004 through February 2005, the IG Team researched preliminary data in
         the Washington DC area. Between February 22 and March 5, 2005, the IG Team visited
         the Jordan International Police Training Center (JIPTC). Subsequently, the team
         conducted fieldwork in Iraq from March 6–27, 2005. Appendix A contains more detail
         on the scope and methodology used in this project. The assessment was completed in
         accordance with the President’s Council on Integrity and Efficiency, “Quality Standards
         for Inspections,” January 2005.

         As with all efforts in Iraq, the Coalition programs to train police are continually
         evolving. The cutoff date for this assessment was April, 2005. Subsequent
         developments generally are not reflected in the report.

Putting Police Training in Context
         The initial assumption was that the Iraqi police training programs would be conducted in
         a post-conflict environment. Contrary to these expectations, the IPS is evolving in an
         environment of high-level violence and terrorism intermingled with a problematic
         insurgency movement.

         Conceptually, the Coalition’s objective is to train the IPS to provide security in urban
         areas throughout the country. 1 In order to meet the IPS capacity required, two academies
         were established: the Baghdad Public Service Academy (renamed the Baghdad Police
         College) and an academy at Muwwaqqar, Jordan—the Jordan International Police
         Training Center (JIPTC). Several regional academies were subsequently added.
         Ironically, the IPS emerged as the prime target of the terrorists and insurgents. Over the
         course of the last year, more than 1,600 members of the IPS have been killed. In
         addition, many intending recruits, congregating in anticipation of joining IPS ranks, have
         been targeted by suicide bombers. Still, recruits show up.

         Given the dangers involved, it is not surprising that every aspect of the training program
         has been difficult. Several governments have shown the willingness to participate in
         training—but only outside Iraq. Likewise it has been difficult to engage instructor and
         mentoring services of non-military expatriates who are willing to work in-country. Even


1
 Regular military units of the Iraqi Army are to be stationed in the rural areas, responsible for traditional national
defense and protection of Iraq’s borders.



                                                         2
         more, full utilization of instructors and mentors throughout Iraq is constrained by strict
         security procedures governing the movement of Coalition personnel in country.

         Finally, the constantly changing ‘street reality’ of Iraq demands great agility and
         ingenuity in designing and executing training programs. Against formidable odds,
         Coalition authorities, with increasing Iraqi participation, are meeting the challenges to
         create a credible, capable IPS.

         Accolades followed the commendable performance of the IPS in helping assure the
         January 30 electoral success. As the IG Team traveled widely in Iraq, members observed
         a reasonable number of policemen on the streets. At police stations visited, there was
         evidence of at least tentative IPS outreach to the public. A favorable degree of self-
         assurance among the police was evident. Embassy public opinion polls showed
         increasing public confidence in the IPS. 2 Thus, despite some weaknesses, the IG Team
         concludes that Civilian Police Assistance Training Team (CPATT) programs have
         resulted in a qualified success.

Key Judgments

    •    Although the IPS is not yet capable of single-handedly meeting the security challenges,
         relevant Coalition training efforts have resulted in a qualified success. Underscoring this
         conclusion are:
             o the good performance of the police during the January elections,
             o the increased visibility of police on the streets, and
             o polls indicating a growing public respect for and confidence in the police force.
    •    Recruitment and vetting procedures are faulty. Despite recent improvements, too many
         recruits are marginally literate; some show up for training with criminal records or
         physical handicaps; and some recruits allegedly are infiltrating insurgents. Iraqi Ministry
         of Interior (MOI) and IPS officials contend that Iraqis are better able to screen candidates
         than are Coalition military personnel. The IG Team agrees.
    •    Most of the IPS training programs have been designed and executed by the Coalition with
         insufficient input from Iraqi leaders. To a significant degree, key decisions made by the
         Coalition Provisional Authority (CPA) still pertain. There is a pressing need for closer
         dialogue with the Iraqi government in determining the process, content and direction of
         the training programs.
    •    Since inception, the Coalition objective has been to create a sizeable, orthodox ‘law and
         order’ police force. The goal is to train and equip 135,000 police by the end of 2006.
         This emphasis on numbers overshadows the attention that should be given to the
         qualitative performance of those trained.
    •    Relevant to all aspects of U.S. government-funded training is the Iraqi government’s
         capacity and determination to sustain the IPS force structure. Within present budget

2
  A “Greater Baghdad” poll indicated that the percentage of those with ‘quite a lot’ and ‘a great deal’ of confidence
in the IP to improve the situation in Iraq increased from a combined total 70% in September, 2004, to 81% in
March, 2005.



                                                        3
      constraints, the Iraqi MOI cannot fund the ministry’s existing staff of about 170,000, let
      alone the additional numbers projected for training. Part of this dilemma may be
      resolved through a present effort to document MOI personnel and identify ‘ghost
      employees’ and others who are not performing effectively. Removing such personnel
      from MOI rolls will be difficult.
  •   MOI officials are not enthusiastic about training Iraqis at the JIPTC. As the Iraqi
      government progressively assumes responsibility for IPS training, it is likely their use of
      JIPTC will atrophy. Planning for the future utilization of JIPTC facilities—and the
      attendant involvement of international contingents—must be addressed as soon as
      possible.
  •   Iraqi officials, notably to include the Minister of Interior, are adamant that henceforth
      training of raw recruits should be suspended in favor of in-service training. In principle,
      CPATT agrees that this shift will be reflected in the next training cycles. Plans need to
      be made now to revise curricula, decide on facilities utilization, and adjust instructor
      staffs.
  •   Unless and until the MOI takes full responsibility for the management and administration
      of the IPS training program, the Coalition is destined to fall short in helping to create an
      effective police force. The ‘handoff’ will be a process, not an event. Attention must be
      given to formulating—in close consultation with Iraqi counterparts—an agreed plan for
      that process.
  •   Concurrent with the ultimate assumption of full responsibilities by the Iraqi government
      and consistent with NSPD–36, the Department of Defense and the Department of State
      need to formulate plans for assumption of residual U.S. Government training
      responsibilities by the Department of State.

Formal Recommendations
      Recommendation 1: Coalition authorities should plan and implement training focused
      on qualitative standards rather than on the numbers of trained IPs. This redefinition of
      objectives should be made explicit in a revised mission statement for CPATT. (Action:
      MNF–I in coordination with MNSTC–I and Embassy Baghdad.)

      Recommendation 2: Coalition and Mission Iraq officials should support and encourage
      efforts by the Iraqi Transitional Government (ITG) to strengthen MOI control over the
      IPS through re-centralization of administrative processes and development of relevant
      SOPs. (Action: MNSTC–I and Embassy Baghdad.)

      Recommendation 3: A working group of qualified instructors, specifically to include
      Iraqi representation, should design a range of courses suitable to the training needs of in-
      service IPS personnel. Mutually established parameters for candidate selection should be
      integral to this process. Changes in curricula for IP training must be negotiated in
      advance with the MOI and be implemented only after Iraqi agreement to such changes.
      (Action: MNSTC–I in consultation with the Iraqi Ministry of Interior.)

      Recommendation 4: Coalition authorities should pursue agreement with the MOI to
      incorporate the existing Emergency Response Unit, Bureau of Dignitary Protection, and


                                             4
provincial SWAT units into the Public Order Battalions, Special Police Commando
Units, and Mechanized Brigades. (Action: MNSTC–I in coordination with Embassy
Baghdad.)

Recommendation 5: Appropriate parties need to explore the merits, feasibility and
conceivable sources of any U.S. Government funding to cover MOI salary shortfalls
during the current fiscal year. This determination should take into account possible out-
year implications for such support. (Action: MNF–I in consultation with MNSTC–I and
Embassy Baghdad.)

Recommendation 6: A joint Coalition/MOI assessment should be conducted to
determine operation and maintenance costs of Coalition-built and/or renovated training
facilities and to determine how and whether those costs can be sustained. (Action:
MNSTC–I in collaboration with Embassy Baghdad and in consultation with the MOI.)

Recommendation 7: Coalition and MOI leaders/trainers should identify a mutually
agreeable target number or percentage of IPS trainees who demonstrate ambition and
talent for subsequent leadership training. (Action: MNSTC–I in consultation with the
MOI.)

Recommendation 8: A joint committee of Coalition and MOI officials should screen
and select officers for advanced training based on mutually established qualification
standards. (Action: MNSTC–I in conjunction with MOI.)

Recommendation 9: The Coalition recruiting program should be placed under the
direction of the MOI, with MNC–I and CPATT providing assistance. (Action: MNF–I in
consultation with MNC–I, MNSTC–I, and Embassy Baghdad.)

Recommendation 10: Coalition authorities should assess the extent and quality of Iraqi
Ministry of Interior’s records relevant to the vetting process, and then conclude a non-
binding memorandum of agreement with the Ministry on access to and utilization of such
material. (Action: MNSTC–I in coordination with Embassy Baghdad and consultation
with the MOI.)

Recommendation 11: Coalition and Iraqi authorities should establish a non-binding
agreement that states the MOI is responsible for vetting candidates for Coalition-
sponsored police training. (Action: MNF–I in consultation with MNSTC–I and Embassy
Baghdad and in collaboration with MOI.)

Recommendation 12: Coalition planners, in coordination with the MOI, should require
that cadets first graduate from one of the police academies prior to entering Public Order
Brigade (POB) or Emergency Response Unit (ERU) training. An in-service police
training program should be developed for “currently serving” POB and ERU members
who are not graduates of a police academy. (Action: MNSTC–I in coordination with the
MOI.)




                                       5
Recommendation 13: Contractual arrangements with expatriate instructors should
specify that individually devised training courses will be submitted in advance for
consideration and possible approval by MNSTC–I and CPATT. (Action: MNSTC–I.)

Recommendation 14: A non-binding agreement should be negotiated by the U.S.
Government with the Iraqi Ministry of Interior that specifies that only applicants in
possession of MOI-issued identification cards, explicitly stating that the bearer is a
member of the IPS, will be accepted for training by the Coalition. (Action: MNSTC–I in
coordination with Embassy Baghdad.)

Recommendation 15: Tables of Organization and Equipment should be developed for
police stations and deployable police units throughout the country. (Action: MNSTC–I in
coordination with MOI.)

Recommendation 16: Coalition authorities should establish internal controls to track
transfer and accountability of equipment to the IPS. (Action: MNF–I in coordination with
MNSTC–I and MNC–I and in consultation with MOI.)

Recommendation 17: Coalition resources, in close coordination with counterparts in the
MOI and IPS, should develop an operational IPS Readiness Reporting System for the
MOI. (Action: MNSTC–I in coordination with MOI.)

Recommendation 18: Coalition commanders should conduct a requirements analysis to
determine the number of International Police Liaison Officers (IPLOs) who can be
gainfully engaged under prevailing circumstances and adjust the number of these mentors
accordingly. (MNSTC–I in consultation with Embassy Baghdad and INL.)

Recommendation 19: Standard operating procedures should be developed for the
IPLOs, to define the relationships and responsibilities among the police liaison officers
and military police. (Action: MNSTC–I in consultation with Embassy Baghdad and
INL.)

Recommendation 20: The Department of State must keep Coalition governments
apprised of developments at JIPTC, specifically those that relate to provision of training
staff at that facility. (Action: Department of State’s Bureau of Near Eastern Affairs in
consultation with INL.)

Recommendation 21: The Department of State should decide whether and where an
ILEA should be established in the Middle East. If Jordan is selected as a venue,
negotiations for such a transformation of JIPTC should proceed quickly. (Action:
Department of State’s Bureau for Near Eastern Affairs in consultation with INL.)

Recommendation 22: Coalition commanders should obtain from the Iraqi Ministry of
Interior a written commitment to assume responsibility for direct payment of the salaries
of Iraqis trained by the Coalition at JIPTC. (Action: MNF–I in coordination with
MNSTC–I and Embassy Baghdad and in consultation with MOI.)



                                       6
Recommendation 23: Embassy Baghdad should work with the Iraqi Ministry of Interior
to define areas in which Coalition advisors can play useful roles. (Action: Embassy
Baghdad in collaboration with IRMO and MOI and in consultation with MNSTC–I.)

Recommendation 24: Top priority should be given to recruiting ‘3161’ personnel
qualified to fill positions as defined jointly by Embassy Baghdad and the Iraqi Ministry
of Interior, then to assigning a full complement of such advisors to the Ministry of
Interior. (Action: Embassy Baghdad through IRMO.)

Recommendation 25: Embassy Baghdad should obtain from the MOI a written
commitment to assure Coalition authorities can access data relevant to tracking and
mentoring IPS personnel trained in U.S. Government-funded programs. (Action:
Embassy Baghdad in consultation with MNSTC–I.)

Recommendation 26: Coalition and MOI officials should develop standard operating
procedures for personnel administration of the Iraqi Police Service. (Action: MNSTC–I
in coordination with Embassy Baghdad.)

Recommendation 27: The Department of State should assign one or more INL officers
to work directly within CPATT to ensure INL perspectives are considered in the
development of the IPS. (Action: Department of State in coordination with Embassy
Baghdad and MNSTC–I.)

Recommendation 28: MNSTC–I should perform an assessment of security and IPS
infrastructure development by province to identify opportunities where additional
responsibility for IPS training can be transferred to Provincial Police. (Action: MNSTC–
I in consultation with the MOI.)

Recommendation 29: The Department of State should propose that the National
Security Council establish an inter-agency working group with representatives from the
Departments of State, Defense, and Justice. The working group should identify issues to
be addressed for the transfer of police training responsibilities from DoD to DoS.
(Action: Department of State, Bureau of Near Eastern Affairs, in consultation with
Embassy Baghdad, MNF–I, MNSTC–I, and INL.)

Recommendation 30: The Departments of State and Defense, in consultation with the
Office of Management and Budget (OMB), should prepare a memorandum of agreement
(MOA) to define funding arrangements for future U.S. involvement in Iraqi Police
Service-related programs. (Action: Department of State’s Bureau of Resource
Management (RM) and Department of Defense’s Office of the Under Secretary for
Policy in consultation with OMB.)




                                       7
Page intentionally left blank




            8
Chapter 1: Policy Issues

The Problem with Numbers
        Perhaps even more than the military, the Iraqi police during the Saddam Hussein era were
        perceived to be corrupt and brutal implementers of oppression. Accordingly, an early
        decision of the CPA was to cashier police officers closely tied to the former regime.
        Other members of the IPS abandoned their duties or were casualties of the conflict. Only
        about 30,000, mostly low-ranking police remained on duty as a residual force—a number
        clearly insufficient to enforce law and order even had stability been established. 3
        Consistent with the CPA goal of erasing troublesome aspects of the Hussein regime,
        command and control of the remnants of the police force were decentralized. This
        further diluted cohesion and effectiveness of the residual force.

        The deficit of policemen was only one of the myriad problems that confronted Coalition
        planners after the June 2004 transition from the CPA to the Iraqi Interim Government
        (IIG). More vexing is the growth of terrorism and insurgency that continue to challenge
        both Coalition military forces and the nascent Iraqi military and police forces.

        Faced with this situation, Coalition officials perceived a primary objective should be the
        fastest possible creation of a sizeable police force. To determine a force-strength target,
        planners reviewed per capita police-to-population ratios in neighboring Islamic countries.
        On this basis, 135,000 “trained and equipped” was considered to be the required number
        of Iraqi police (IP). 4 The IIG agreed to this figure, and the IG Team accepts the logic of
        this methodology.

        Nonetheless, aiming for numbers poses other issues. With the mix of IPs already on the
        force plus new recruits, it is hard to determine how many IPs are “trained and equipped.”
        There are differing views on which units should be counted or how to validate the
        numbers against the goal of 135,000. Attrition and the failure to hire trainees (and/or
        trainees’ decisions not to join the IPS) are additional factors that cloud the numbers’
        calculations. Coalition training subsequently has been driven by a focus on the numbers
        metric.

        With a high IP casualty toll (over 1,600 policemen have lost their lives over the past
        year), widely publicized incidents in which the IP failed in the face of attacks, and
        skepticism among foreign observers, there is a perception that training programs have
        produced ‘cannon fodder’—numbers of nominal policemen incapable of defending
        themselves, let alone the Iraqi public.



3
  Per the May 2003, ORHA/CPA Assessment of the Iraq Police, the 2003 pre-war strength of the Iraqi Police Force
under the General Director of Police was 58,006.
4
  The 135,000 IP figure resulted from a MNSTC-I Troop-to-Task study completed in June 2004.



                                                     9
         The only reliable figures are the number of graduates from Coalition training—76,172, as
         of April 17, 2005. However, an undetermined number of graduates never enter the IPS,
         either because they opt out or because the MOI chooses not to enroll them as active duty
         policemen.

         A variety of security forces comprise the IPS. The way these forces are categorized and
         counted further bedevils the problem with numbers. In January 2005, the Minister of
         Interior laid out his vision for a ‘regular police’ force of 79,000 (Figure 1). These regular
         police would be supplemented by the specialized police force (i.e., Public Order
         Battalions (POB) and Special Police Commando Units) of 50,000, plus a mechanized
         brigade of 6,000. Altogether, these forces would total 135,000. In contrast, MNF–I
         regards the POB, Commandos, and the mechanized brigade to be additional to the
         Coalition-proposed regular IPS force of 135,000. 5 In conversation with the IG Team, the
         Minister of Interior asserted that there are now more than 125,000 IP on the rolls. He
         went on to state that “. . . the numbers are okay; what we need is better quality, more
         training. 6




    Figure 1. Ministry of Interior proposed police structure splits police into 79,000 regular
                              police and 56,000 specialized police


5
  The Department of Border Enforcement (DBE), the Iraqi Highway Patrol (IHP), the Bureau of Diplomatic
Protection (BDP), the Emergency Response Unit (ERU), and the Facilities Protection Service (FPS) are not counted
in the target numbers for IP. However, Coalition training programs encompass these units.
6
  The current (May 2005) Minister of Interior, Bayan Baqur Jaber, is reviewing proposals relating to Ministry force
end strength.



                                                      10
     In reviewing the quantity vs. quality complex of issues, one obvious conclusion is that
     numbers alone rarely prevail against well-trained, well-equipped, and well-led forces. As
     one Iraqi police officer noted, “. . . 150,000 American troops readily defeated Saddam
     Hussein’s army of about one million.”

     The IG Team is convinced that the dialogue concerning the strength and shape of the IPS
     must be changed. Accepting the MOI formulation of the IPS would enable MNSTC–I
     and CPATT to move beyond the issue of numbers and shift attention to the quality of
     training.

     Admittedly, qualitative parameters will be less amenable to objective measurement than
     is the numbers metric. Nonetheless, the IG Team suggests that a better-prepared IP will
     result in better performance that, in turn, will be readily apparent to the Iraqi public and
     the media. Achieving the qualitative goals will be judged by what happens on the streets
     of Iraq.

      Recommendation 1: Coalition authorities should plan and implement training focused
      on qualitative standards rather than on the numbers of trained IPs. This redefinition of
      objectives should be made explicit in a revised mission statement for CPATT. (Action:
      MNF–I in coordination with MNSTC–I and Embassy Baghdad.)

Training to Iraqi-perceived Needs
     Much of the planning and execution of the IPS training program has been done by
     Coalition military leaders without sufficient input from Iraqi officials. One high-ranking
     official in CPATT told the IG Team that “. . . until recently, Iraqi views were given
     absolutely no consideration. They (the Iraqis) still do not have a deciding vote.” Another
     stated, “We are not learning our lessons. We still develop great ideas and plans, and then
     lay them on Iraqis.”

     During the time of the CPA, such an approach was both inevitable and, perhaps,
     appropriate. In the wake of the collapse of the Saddam Hussein regime, no Iraqi policy
     makers were in a position to make authoritative decisions. The CPA decision to cleanse
     the political system of Hussein sympathizers—notably, the ‘de-Ba’athification’ effort—
     effectively decapitated the IPS of its standing leadership. Even though some former
     police officers have been reincorporated into the force, it was necessary to start almost
     from scratch to build a new police force. The result was a ‘bottom-up’ approach with
     primary emphasis on minimal basic training.

     Overall, there is little consensus on how to train Iraqi police. One exception is the
     universal agreement that the eight weeks devoted to the basic course is insufficient time
     to produce a capable policeman. Thus, there is tacit consensus that the training program
     to date has not created an effective IPS. (There is no consensus on how long a time
     would be required to achieve the desired results.)




                                            11
        As this assessment was being conducted, MNSTC–I and CPATT leaders were planning
        to lengthen the basic training course to 10 weeks. This seems to be an appropriate step,
        but the IG Team makes no recommendation as to the optimum time required for such
        training. 7

        At the outset of the CPA effort to build IPS capacity, the assumption—even to some
        extent, the reality—was that training could be molded within a rapidly stabilizing
        political and security environment. The unexpected virulence and scope of subsequent
        terrorism and insurgency induced changes in the program, but such modifications have
        lagged the ‘street reality’ in Iraq.

        Adjustments in the training course have been and are being made. During this
        assessment, the JIPTC staff completed a CPATT-directed revision of the basic
        curriculum to include more ‘hands on,’ self-protection exercises. Other IPS in-country
        academies are adopting these changes. IP personnel and MOI officials strongly support
        the adjustments and the shift in emphasis.

        A CPA decision to decentralize command and control of the IPS has had unintended
        consequences. Decentralization was consistent with the intent to disperse political
        power. Commendable in concept, the emerging result within the IPS is a pattern of
        fiefdoms, subject to political machinations. An example of this political maneuvering is
        the situation of competing chiefs of police in Najaf where one responds to the provincial
        governor, the other to the MOI.

        Pay problems have been an equally troubling result of decentralization. Under the CPA-
        designed system, much of the central government’s funding is allocated to the provincial
        governors. Thereafter, the monies are sub-allocated to respective elements, such as the
        police. Accordingly, each provincial chief of police controls his share of sub-allotted
        funds. Allegations of mismanagement and corruption in the disbursement of pay for IPs,
        equipment purchases, etc., are credible. Re-centralization of control is not the total
        answer to these issues—especially to corruption—but the IG Team concludes that tighter
        MOI control is desirable.

          Recommendation 2: Coalition and Mission Iraq officials should support and
          encourage efforts by the Iraqi Transitional Government (ITG) to strengthen MOI control
          over the IPS through re-centralization of administrative processes and development of
          relevant SOPs. (Action: MNSTC–I and Embassy Baghdad.)

        With the June 28, 2004, transition from the CPA to the IIG, the locus of decisions
        regarding the IPS began to shift. At first modestly, but now with increasing forcefulness,
        the MOI articulates relevant Iraqi positions and policies. Dialogue among key
        stakeholders (MNSTC–I, CPATT, and the MOI) quickened notably during the course of
        the fieldwork for this assessment. For example, the Minister of Interior told the IG Team

7
 Whatever the content to be addressed in the additional time, there are obvious implications in terms of meeting
established numbers goals by December 2006.



                                                      12
         that, henceforth, police training should focus on in-service members of the force—“no
         new recruits.” 8 The implications for the training program are multiple and complex.

         CPATT leaders indicate willingness to adapt to the Minister’s decision. The CPATT
         Commander told the IG Team that, as of the cycle beginning in June 2005, the focus will
         be on training in-service IPs. The questions relative to course content must be addressed
         on an urgent basis. The easy solution—to recycle under-trained IPs through the basic
         course—may not be appropriate, in light of differing levels of experience and prior
         training among this more seasoned cadre.

          Recommendation 3: A working group of qualified instructors, specifically to include
          Iraqi representation, should design a range of courses suitable to the training needs of in-
          service IPS personnel. Mutually established parameters for candidate selection should
          be integral to this process. Changes in curricula for IP training must be negotiated in
          advance with the MOI and be implemented only after Iraqi agreement to such changes.
          (Action: MNSTC–I in consultation with the Iraqi Ministry of Interior.)

         It is not clear if MOI officials have addressed implications of the Minister’s dictum
         regarding the shift from new recruits to in-service training. Specifically, if the number of
         in-service students approximates present new recruit levels, the available ‘street strength’
         of the IPS could drop by as much as 10 percent. 9 This reduction of numbers on the street
         seems unwise and unsustainable. On the other hand, a smaller number of IPs in training
         would reduce the number of instructors required and utilization of existing facilities.

         As Iraqi officials articulate positions on IPS issues, an emerging concept is the
         development of a ‘third force’—a capability between orthodox police and internal
         security military units. Consistent with this objective, the MOI enthusiastically embraces
         the preparation of the Public Order Brigades (POB). 10 An MOI initiative, Special Police
         Commando Units and an IPS mechanized brigade are now operative. CPATT conceived
         the POB program and is engaged in training the Special Police Commandos. At the same
         time, the MOI has not claimed ownership of the CPATT-trained Emergency Response
         Unit (ERU), the Bureau of Dignitary Protection (BDP), or even the SWAT teams that
         have performed well in operations in Mosul and elsewhere. MOI attitudes relative to
         these units are reflected in frequent failure to pay IPs serving in those units. The IG
         Team concludes that, as the Iraqis eventually assume responsibility for IPS training, the
         status of these Coalition-conceived units may languish.



8
  In an undated memorandum, issued about the time of this assessment, then Minister Naqib states “New cadets will
only join the 8 week course if existing Iraqi police forces do not fill all available classroom space…”
9
   Currently, the basic courses are geared to train about 4,000 cadets per month. With the overlapping pattern, this
means that about 8,000 IPs are in such training at any point in time. The ‘street strength’ of the IPS is assumed to be
about 80,000.
10
   The IG Team understands the underlying implications of moving in the direction of a paramilitary capability
rather than the more orthodox policing model originally conceived. However, that debate is beyond the scope of
this assessment.



                                                       13
             Recommendation 4: Coalition authorities should pursue agreement with the MOI to
             incorporate the existing Emergency Response Unit, Bureau of Dignitary Protection, and
             provincial SWAT units into the Public Order Battalions, Special Police Commando
             Units, and Mechanized Brigades. (Action: MNSTC–I in coordination with Embassy
             Baghdad.)

The Question of Sustainability
           The true measure of the training achievement will be in the Iraqi government’s
           determination and capacity to sustain the IPS force structure over time. Unless and until
           the MOI claims and commits to full ‘ownership’ of the IPS training programs and
           employs qualified graduates from those programs, Coalition efforts will fall short of the
           goal of creating an acceptably effective instrument of law and order. ‘Ownership’ of IPS
           training implies that, at some point yet to be defined, the Iraqi Government will assume
           full responsibility for funding such training. In this respect, there are both policy and
           resource impediments.

           On the resource front, an immediate issue is the MOI budget. For FY05 (January 1–
           December 31, 2005), the MOI budget is adequate to fund salaries of 128,000 employees.
           Some time before this fieldwork, then IIG Prime Minister Allawi approved funding for
           156,000. The Council of Ministers did not ratify this decision; hence, the Minister of
           Finance did not fund MOI’s increased requirement. Meanwhile, present MOI personnel
           (both IPs and staff, the latter predominantly at MOI headquarters in Baghdad) number
           about 170,000. By training additional IPs, CPATT effectively exacerbates the budget
           shortfall. 11

           A factor in the MOI’s financial capability to sustain the growing IPS force is the
           considerable, though undetermined, number of ‘ghost’ employees on the ministry’s
           roster. Although not productively engaged in the MOI’s structure, these persons are,
           nonetheless, on the payroll. Some encumber sinecures for family or tribal members.
           Others are retired personnel who draw salaries in a socio-economic system without
           adequate—or any—pensions.

           It is conceivable that the Iraqi Transitional Government (ITG) may allocate additional
           FY05 funds to the MOI. Absent such action, some Coalition officials opine that capital
           development funds could be shifted within the MOI budget to cover salary shortfalls,
           although the MOI Deputy Minister states categorically that shifting resources between
           funding ‘chapters’ is not possible. One senior Coalition official posits that, contingent on
           Congressional approval of the DoD supplemental legislation and the requested $5.7
           billion additional training fund, the U.S. may be able to cover the prospective MOI
           budget deficit relative to IPS salaries. At best, this would be a stopgap measure. More




11
     As discussed elsewhere in this report, not all trainees subsequently are hired as policemen by the MOI.



                                                         14
        importantly, the IG Team believes any such action would establish an unfortunate
        financial and political precedent.12

          Recommendation 5: Appropriate parties need to explore the merits, feasibility and
          conceivable sources of any U.S. Government funding to cover MOI salary shortfalls
          during the current fiscal year. This determination should take into account possible out-
          year implications for such support. (Action: MNF–I in consultation with MNSTC–I and
          Embassy Baghdad.)

        The increasing numbers of Iraqi instructors involved in relevant programs is one aspect in
        which the MOI is beginning to assert ownership of IPS training. At JIPTC, an IP general
        headed a contingent of 12 Iraqi instructors. By mid-April, 60 Iraqi instructors were at
        JIPTC. Similarly, the number of Iraqi instructors is increasing at regional academies.
        For example, at the Babylon Police Academy (al-Hillah) and at the al Kut academy,
        Iraqis conduct all classroom and range instruction under the watchful care of
        International Police Trainers. Familiarity with the actual conditions in Iraq and the IPS
        culture, as well as the ability to communicate with the cadets in their own language
        enhances the value of an indigenous training cadre.

        The Team encourages this trend toward more Iraqi instructors. At the same time, CPATT
        must concentrate on establishing effective train-the-trainer programs. CPATT must
        ensure quality instruction and curricula consistency.

        The Coalition IPS training program is capital intensive. Thus far, the U.S. Government
        has spent about $190 million in building or renovating training facilities both at JIPTC
        and inside Iraq. 13 By and large, the Coalition created the facilities. The MOI will inherit
        them. The Deputy Minister of Interior (Finance) told the IG Team that the “MOI has no
        funding in the Ministry’s FY05 budget for police academies.” Thus, the Coalition will
        bear the full cost of operating and maintaining these facilities. Yet to be determined are
        the costs for out-year operation and maintenance (O&M) and the MOI’s determination
        and ability to shoulder those costs. 14

          Recommendation 6: A joint Coalition/MOI assessment should be conducted to
          determine operation and maintenance costs of Coalition-built and/or renovated training
          facilities and to determine how and whether those costs can be sustained by the MOI in
          the future. (Action: MNSTC–I in collaboration with Embassy Baghdad and in
          consultation with the MOI.)




12
   Senior U.S. military commanders are seized with the conundrum of providing U.S. support without developing an
over-dependency on the part of the MOI.
13
   This does not include O&M costs.
14
   As in the case of payroll issues, the IG Team cautions against funding decisions that might set a precedent for
future U.S. Government O&M support.



                                                     15
Building Leadership
        Rebuilding a national police service for Iraq presents major challenges. The first hurdle
        was to enroll sufficient numbers to be a credible force. This prefigured a ‘bottom-up’
        approach with the major focus for basic training of new recruits. The importance of that
        objective has overshadowed the need to ensure the IPS has effective, committed
        leadership. Based on direct observation of IP officers and numerous exchanges with both
        Coalition officials and Iraqis involved in training, the IG Team concludes that both the
        numbers and quality of police leaders now need to be given priority.

        The problem starts with a relative shortage of mid-level leaders and managers. Many
        police chiefs and their deputies are accustomed to the IPS culture that prevailed during
        the Saddam Hussein era. Old habits and methods (e.g., reliance on forced confessions,
        taking the initiative only when directed, and rigid delineation of responsibilities) work
        against effective and efficient policing.

        The need for attention to these aspects is self-evident. In instances where good
        leadership is present (often provided by Coalition military personnel or International
        Police Liaison Officers (IPLOs)), IPs perform satisfactorily and stand their ground in the
        face of attacks. The absence of such leaders correlates closely with instances in which IP
        stations have been overrun, often with shocking casualties among ill-prepared and ill-led
        policemen.

        Senior IP officers interviewed by the IG Team were outspoken in identifying insufficient
        numbers (and quality) of officers as a major weakness within the IPS. They urged
        restoration of the former ‘police college’ system, preferably with a three-year curriculum,
        such as that at the Baghdad Police College (BPC) that predated the Saddam Hussein era.
        MNSTC–I and CPATT are moving ahead to restart officer training at the BPC, although
        present plans are for a six-month course rather than the more extended course favored by
        the Iraqis. In a free-form discussion with the Chargé d’Affaires, IPLOs were equally
        vocal in identifying leadership development as a major weakness in the present training
        program.

          Recommendation 7: Coalition and MOI leaders/trainers should identify a mutually
          agreeable target number or percentage of IPS trainees who demonstrate ambition and
          talent for subsequent leadership training. (Action: MNSTC–I in consultation with the
          MOI.)

        At present, CPATT conducts short leadership courses (generally two weeks’ duration) at
        the Adnan Palace in Baghdad. 15 As in the case of the eight-week basic training course,
        the time devoted for this ‘advanced training’ may be insufficient. The training essentially
        can be shaped by CPATT (in consultation with the MOI). The IG Team informally

15
  As of April 17, 2005, 853 Iraqis had gone through management and leadership courses in executive leadership,
senior planning, mid-level management and first line supervision.



                                                     16
recommends that CPATT review the course content and duration of the leadership
training courses.

More importantly, trainees allegedly have been selected more on a basis of favoritism
than on capability or potential. The IG Team concludes that the palpable need for better-
trained commanders and managers will help move the MOI in the direction of merit-
based nominations. Although selection of candidates for leadership training is
appropriately the province of the MOI, CPATT needs to participate in the process.
Trainers are well positioned to help identify good candidates as future IPS leaders. The
objective is to assure cost effectiveness in expenditure of U.S. funds on this training.

 Recommendation 8: A joint committee of Coalition and MOI officials should screen
 and select officers for advanced training based on mutually established qualification
 standards. (Action: MNSTC–I in conjunction with MOI.)




                                      17
Page intentionally left blank




           18
Chapter 2: The Training Process

Recruiting and Selecting Trainees
         As a result of the conflict in 2003 and the ensuing state of chaos and looting, much of the
         IPS infrastructure was destroyed or badly damaged. 16 Many of the IPs who served
         during the Saddam Hussein era either abandoned their positions, were casualties of war,
         or were cashiered. On May 2, 2003, the Office for Reconstruction and Humanitarian
         Assistance (ORHA—the predecessor of the CPA) called for police in Baghdad to return
         to work. Coalition force commanders made similar announcements for secured areas
         outside the capital. In June 2003, the CPA and MOI issued a directive that all police
         officers had to return to work no later than July 3. Those failing to do so were subject to
         immediate termination. According to International Criminal Investigation Training
         Assistance Program (ICITAP) officials, about 38,000 had returned to the IPS as of July.
         To bolster the force, an additional 30,000 police were recruited by Coalition Joint Task
         Force 7 (CJTF–7) and the Major Subordinate Commanders (MSCs). The driving
         objective was to get “boots on the ground.” In doing so, the CPA enunciated minimal
         requirements for entry into the IPS. 17

         Subsequently, to meet MNSTC–I training quotas, two patterns of recruiting evolved.
         Iraqis did most of the recruiting in the Baghdad area. Coalition forces (working through
         the major subordinate commands or MSCs) were in charge of recruiting in the rest of the
         country. Iraqi recruiters appear to have enforced minimum requirements as enunciated
         by CPA, while the MSCs sent to JIPTC some recruits who did not meet those minimum
         standards.

         In the Baghdad area, applicants learn of recruitment via word of mouth. In light of the
         relatively good pay prospects, this simple system attracts more than enough applicants.
         Many simply show up at police stations or at the Baghdad Police College (BPC).

         The IG Team observed recruiting and selection (a sequentially seamless process) at the
         BPC. After passing through elemental security screening, aspirants are admitted into the
         walled facility on a first-come, first-served basis. If, as frequently is the case, more show
         up than can be processed on a given day, identifying data is taken on those who are
         turned away. They are given numbers (again, in order of their place in the line) and told
         when to return to be among those first admitted.

16
  Subsequent attacks by insurgents and terrorists have exacerbated those problems.
17
  Standards were: (1) minimum age of 20; (2) completed secondary school with ability to read, write and
communicate in Arabic; (3) no affiliation with the Ba'ath party in accordance with the standards enumerated in
Coalition Provisional Authority Order Number 1; (4) no reported history of human rights violations or history of
mistreatment or abuse of other persons; (5) no criminal history involving violence, theft or violating the public trust;
(6) physically and psychologically fit to accept responsibilities; (7) each applicant's uncorrected vision must not
exceed 20/200 in either eye with normal color vision.



                                                        19
        Once admitted to the facility, the process is very basic. On entry into a classroom setting,
        each applicant is given an identifying number that corresponds to his or her file. 18 The
        first step is a timed written test, designed and administered by an American contractor.
        Iraqis proctor the test. Results are machine graded in the presence of an IPS official.
        Since responding to questions involves understanding the written material, the test
        presumably establishes basic literacy of the person being examined. Applicants who do
        not achieve the minimal threshold score are called forward by number, courteously
        escorted off the premises, and dismissed.

        A second stage in the process consists of an interview 19 and physical examination. At
        BPC, the processing observed by the IG Team covered all of the minimum standards
        prescribed by the CPA.

        The physical exam appears especially cursory. At the time of the IG Team’s observation,
        most applicants appeared to be in their late teens to early 20’s and fully functional
        without any physical handicaps. However, a physician stated he did not have sufficient
        time to complete a thorough medical examination of so many applicants in such a short
        time (70 students on the day in question). Consequently, the examination consisted of
        completing a medical history questionnaire, checking applicants’ eyes for squinting, and
        verifying a steady pulse. The doctor then pronounced the applicant fit or unfit. There
        was no testing to determine physical stamina, dental review, or body checks for even
        readily detectable identification marks such as scars or tattoos. The doctor also told the
        IG Team that a considerable number of students appeared to suffer some form of mental
        problems, hard to diagnose during the interview process.

        Elsewhere in the country, MSCs recruit and select candidates to fill available training
        slots as directed in a monthly “fragmentary order” (FRAGO). The MSCs use various
        recruiting tools including recommendations from the command’s recruiting unit, IPLOs,
        serving IPS personnel, and from other reliable sources in a given community. These
        Coalition recruiters are encouraged to accept all recruits who are sponsored by local
        officials.

        To date, all those going to JIPTC for basic training have been recruited and selected by
        the MSCs. Even though the processes used by the MSCs theoretically are the same as
        those used by the Iraqi recruiters, the MOI apparently does not have a sense of
        commitment to those trainees who enter training via the MSC route.

        The FRAGO contains detailed instructions on transportation and timing for movement of
        MSC-selected trainees. Those destined for JIPTC are taken to the Baghdad International
        Airport for onward movement to Jordan. The MSCs are involved with IPS personnel in


18
   No female trainees are sent to JIPTC. Although plans call for women cadets at regional academies in Iraq, thus
far only BPC has trained women IPs.
19
   See discussion on vetting below.



                                                      20
         recruiting for the BPC classes as well as for the regional training centers inside Iraq,
         based upon the needs of those training facilities.

         In discussion with the IG Team at JIPTC, Iraqi cadets and instructors stated that earlier
         recruiting had included offering the recruits guns and badges upon completion of
         training. They asserted some recruits joined because of the offer of employment without
         knowing that they were being sent to Jordan for training. Others allegedly were paid a
         fee by recruiters. It is widely assumed that some trainees reversed that pattern and bribed
         recruiters to secure a training slot. Some were led to believe they would be
         accommodated in fine hotels in Amman. Allegedly, all were advised they would receive
         about $200 a month during training. 20

         Despite the
         written test,
         attrition
         statistics show
         that illiterates
         make it into
         basic training.
         Less frequent
         are cases of
         those with
         easily
         detectable
         physical or
         mental
         impairment.
         Some cadets
         clearly are
         older than the
         established
         age limits.
         Coincident to this assessment, about 20 senior IP officials (including four general
         officers) were sent from the Mosul area to basic training at JIPTC. 21 Occasionally,
         trainees are separated when information is revealed about past criminal behavior or
         allegations of involvement with the insurgency.22 Other common causes for dismissal
         from training are infractions of discipline, illness or inability to adjust (normally
         homesickness). The team was advised at JIPTC that a surprising number of students
         arrive with drugs that are confiscated during in-processing. These instances support a

20
   None of these interlocutors were among the first recruits, but their version of events — oral history — is plausible
and continues to affect recruiting efforts to some degree.
21
   When this was discovered, the officers were given the option of returning to Iraq forthwith or enrolling in the
basic course. Several chose the latter course.
22
   Several Iraqi sources advised the IG Team that there are known insurgents within the ranks of students. However,
they did not indicate the basis for such allegations.



                                                       21
     widely shared perception that screening of IP candidates is at best superficial, sometimes
     inconsistent.

     In order for the IPS recruiting mission to be successful, MSCs should work in close
     coordination with IPS officials. Participation of the latter will enhance the MOI’s
     commitment to such trainees. At a minimum, the interview of each applicant by a senior
     IPS officer should be required as part of the selection process. In keeping with the
     objective of nurturing MOI ‘ownership’ of IPS training, a logical step would be to place
     responsibility for recruiting and selection on Iraqi officials.

      Recommendation 9: The Coalition recruiting program should be placed under the
      direction of the MOI, with MNC–I and CPATT providing assistance. (Action: MNF–I
      in consultation with MNC–I, MNSTC–I, and Embassy Baghdad.)

     Without questioning the patriotism that motivates many members of the IPS, it must be
     acknowledged that large numbers of policemen join the force for purely pecuniary
     reasons. Many apply with only a vague notion of what is expected of them as trainees or
     members of the IPS. More systematic orientation of those selected for training would
     complement recruiting, selection, and assignment of trainees. For those destined to go to
     JIPTC, this should occur before departure from Iraq. Parallel programs should be
     conducted at the BPC and each regional academy. For raw recruits (i.e., those entering
     the IPS for the first time), the orientation should include an option to withdraw from the
     program at that stage. The IG Team made an informal recommendation on this matter.
     (See Chapter 5)

Vetting Prospective Trainees

     Inducting criminals into the IPS is a continual concern. Even more troubling is
     infiltration by intending terrorists or insurgents. There is sufficient evidence to conclude
     that such persons indeed are among the ranks of the IPS. This underscores the need for
     the most rigorous possible review of each applicant’s records.

     To gain an understanding of the vetting process, the IG Team met with Iraqi police cadets
     and instructors, International Police Trainers (IPT) at various police training academies,
     officials of the MOI and Coalition authorities. All Iraqis interviewed suggested that
     vetting performed by Coalition forces is not as thorough as what could be done by the
     MOI. The IG Team was told that, especially early in 2003, only a cursory background
     check, if even that, was conducted before policemen were trained or entered the force.

     In terms of policy, several IPS interviewees expressed reservations about aspects of
     Coalition vetting. For example, they contended that no Iraqi would recruit or employ a
     candidate who had tattoos. In their culture body tattoos are indicative of a person who
     has a criminal record or at least a propensity to violate societal norms. Likewise, the
     longer-term prospects for female members of the IP are problematic. In some areas,
     notably in Kurdistan, women are accepted members in both the police and military. In



                                            22
         most other regions, it is likely that female IPs will be relegated to supporting roles, at best
         as administrative staff.

         It is widely contended that the vetting process is stymied by the lack or inaccessibility of
         personnel or police records. As with recruiting and selection of trainees, vetting is
         especially difficult if carried out by non-Iraqis. Indeed, the Coalition’s ability to conduct
         thorough background checks on IPS personnel is severely limited. Use of polygraph
         techniques is impracticable, given the numbers of candidates to be processed. Effective
         communications across language and cultural barriers is an issue too.

         Nonetheless, the IG Team concludes that more can and should be done. For example, a
         knowledgeable official with ICITAP informed the team that the criminal identification
         laboratory in Baghdad survived the post-invasion looting, as did the MOI’s Crime Bureau
         database. 23 Some Iraqis interviewed by the IG Team likewise contend that more
         information is available than previously presumed by Coalition authorities. Relevant
         documentation is often kept by mukhtars (village elders).

          Recommendation 10: Coalition authorities should assess the extent and quality of Iraqi
          Ministry of Interior’s records relevant to the vetting process, and then conclude a non-
          binding memorandum of agreement with the Ministry on access to and utilization of
          such material. (Action: MNSTC–I in coordination with Embassy Baghdad and
          consultation with the MOI.)

         The MOI eventually will be able to screen all IPS personnel, in part by accessing the
         Automated Fingerprint Identification System (AFIS) system being developed in the
         United States. Although fingerprints collected to date by the Qualifying Committee (QC)
         are being screened against the FBI, Department of Homeland Security, and Interpol
         watch lists, they have not been checked against existing Iraqi criminal fingerprint
         records. 24

         Iraqis familiar with local dialects can distinguish the area that a recruit comes from, a
         helpful bit of information in terms of vetting. Another frequent recommendation from
         Iraqi interlocutors was that applicants for initial training should be endorsed by some
         well-regarded member of his or her community—a personal guarantor of sorts, able to
         testify to the good character of the intending policeman.

         Despite weaknesses discussed above, there is progress. The IG Team commends
         Coalition staff for formalizing a January 2005 standard operating procedure (SOP)
         covering IPS recruiting.


23
   The laboratory is outmoded, but reportedly contains sections for ballistics, fingerprinting, casting, crime scene
photography, blood sample analysis and counterfeiting. Supposedly, the database contains some 700,000
fingerprints stored on cards and computers.
24
   Over 400,000 Iraqi fingerprint cards and an Iraqi (Russian built) AFIS with 100,000 entries were shipped to the
United States for loading into a new Iraqi AFIS.



                                                       23
     In light of the present, difficult employment environment, service in the IPS is financially
     attractive. That factor adds to the vulnerability to petty corruption in Iraqi-conducted
     vetting and recruiting. Nonetheless, the IG Team concludes that early MOI assumption
     of responsibility for those functions would accomplish several goals:

       • increasing Iraqi ‘ownership’ of the training program,
       • matching capabilities with functions more closely,
       • and overcoming language-related impediments.


      Recommendation 11: Coalition and Iraqi authorities should establish a non-binding
      agreement that states the MOI is responsible for vetting candidates for Coalition-
      sponsored police training. (Action: Embassy Baghdad in consultation with MNF–I and
      MNSTC–I.)

Basic Training

     The eight-week basic training course for the IPS is offered primarily at Baghdad Police
     College (BPC) and the Jordanian International Police Training Center (JIPTC).
                                                                           Additionally, basic
                                                                           training has been
                                                                           conducted at
                                                                           regional training
                                                                           academies at al-Kut,
                                                                           al-Hillah, al-Asad,
                                                                           Basrah, Mosul and
                                                                           Sulaymaniyah.

                                                                              The curriculum
                                                                              used was a revised
                                                                              ICITAP course
                                                                              originally developed
                                                                              for training in
                                                                              Kosovo. From the
                                                                              beginning Coalition
                                                                              planners intended
                                                                              the eight-week basic
                                                                              course to serve as a
     starting point and not as the ultimate training solution. A field training and mentoring
     program was to have supplemented the rudimentary basic training course.

     Given the April 2004 rise in the insurgency, it became apparent that the field training
     envisioned in the original concept could not be executed. Yet the Coalition was reluctant
     to increase the length of basic training because of the urgent need to build IPS capacity
     and get policemen on the streets. As the IP increasingly became targets of the
     insurgency, MNF–I recognized the need to change the direction and emphasis of the


                                            24
        training. The basic recruit curriculum was changed to focus on officer survival skills in
        an insurgency. 25

        The eight-week training course yields a maximum 320 hours of training time. To
        accommodate an increase in hours spent on counter-insurgency training and self-defense
        skills without increasing overall course length, some classroom subjects were eliminated
        while other related subjects were reduced. Courses on democratic policing principles are
        critically important to the mission and should not be eliminated or reduced. To recover a
        significant amount of time that is currently lost to translation, the IG Team informally
        recommends that CPATT develop Arabic training videos for those repetitive courses that
        are suitable for audiovisual presentations. (See Chapter 5)

        A revised curriculum was being implemented during the IG Team’s inspection of the
        JIPTC facility in Jordan. A standard curriculum, across all of the facilities conducting
        basic police training, is a fundamentally sound concept from a management perspective,
        positively affecting issues other than mere standardization. Standardized curriculum
        drives standardized equipment and personnel requirements, resulting in budgetary
        savings.

        Currently, the basic course does not include night training. As the Coalition adapts its
        training plan to deal with the insurgency, it must prepare the IPS to conduct operations in
        the dark. The enemy is using the cover of darkness to plant improvised explosive devices
        and conduct other night time operations. Experts agree that police tactics, patrolling, and
        intelligence gathering activities during day light hours are markedly different than the
        tactics employed at night. Thus, the team informally recommends incorporation of night
        training in the tactics phase of the basic course. (See Chapter 5)

        The Team observed a lack of discipline among the basic recruits at several of the training
        sites. This was not the case at those facilities conducting specialized training for the
        Emergency Response Unit (ERU) and the Public Order Brigades (POB). As practiced in
        the specialized training programs, the use of properly trained Iraqi drill instructors would
        facilitate discipline and help to create a sense of esprit-de-corps among the cadets. While
        it is recognized that Iraqis are family and tribal oriented, the training programs must
        foster a sense of esprit-de-corps and teach teamwork. The IG Team makes an informal
        recommendation on this matter. (See Chapter 5)

Revising the Basic Police Training Curriculum
        The basic IP training curriculum started out with 75 percent classroom training and 25
        percent ‘hands-on’ exercises. Presumably these percentages were a good mix for training
        in Kosovo, considering there was a stable post-conflict situation, a much higher ratio of
        international trainers to trainees, and a higher educational level among the students.
        MNSTC–I and CPATT recognize that the training program must be dynamic rather than

25
  CPATT directed JIPTC’s staff to modify the basic training curriculum to incorporate survival skills, while
retaining the same eight week duration.



                                                      25
     static. Adjustments and revisions are required; many have been incorporated, including
     substantial changes to the curriculum that have essentially reversed the previous ratio of
     classroom to hands-on time.

     Based on their broad experience in providing police instruction, a large number of the
     International Police Trainers (IPTs) have concluded that Iraqi police candidates grasp
     lessons more quickly and completely when presented via ‘hands-on’ exercises rather than
     in classroom settings. Thus, the JIPTC staff made arrangements for the Architecture
     Department at the University of Jordan to prepare three-dimensional models for tabletop
     exercises. It is assumed this will work better for Iraqi trainees who have difficulty using
     and understanding diagrams or
     maps.

     The prevalent use of improvised
     explosive devices (IEDs) by
     terrorists and insurgents in Iraq
     underscores the need to train IPs to
     deal with such dangers. At JIPTC,
     the Center constructed a training
     field based on the physical layout
     of a typical Iraqi street. Trainers
     use this mock-up to give the
     students the practical experience to
     manage IED post-detonation
     situations, crowd control, and safe approach as a precaution for secondary explosives.

     An existing hangar at JIPTC will be converted to provide areas for realistic crime scene
     investigation scenarios. The training complex will provide an area to practice search
     techniques in and out of buildings, a booby-trap room, and a vehicle stop area for
     checkpoint training. The curriculum is being further modified to include vehicle patrol
     tactics and foot patrol tactics.

     IPS family members are frequent targets for intimidation and violence by insurgents.
     Trainees need to be aware of personal security issues and how to protect their families.
     IPs are vulnerable when transiting to and from work and when patrolling and manning
     check points.

Transition Integration Program
     One of the challenges of building a viable police force was to retrain the veteran
     policemen who served during the Saddam Hussein era. This group must be retrained
     with the objective of instilling modern police techniques, respect for human rights, and
     democratic policing principles. To achieve this goal, CPATT implemented an in-service




                                           26
        training program called the Transition Integration Program (TIP). 26 The program also
        incorporates attention to applicable Iraqi criminal law and procedures to be observed for
        arrest and detention. Additionally, the TIP was designed to accomplish several other key
        tasks:

              • Identify existing IPS personnel who were academically, intellectually, or morally
                unsuitable;
              • Identify potential leaders within the IPS; and
              • Identify potential IPS instructors and field training officers.

        TIP training takes place at Coalition forward operating bases (FOBs) and at some of the
        regional academies. The course is three weeks long and covers 126 hours of instruction.
        Course subjects include: (1) the philosophy and role of the IPS, (2) prohibitions against
        torture, (3) police ethics and values, and (4) the code of conduct. About one third of the
        course time is devoted to firearms instruction on 9mm and AK–47 weaponry.

        As of late April this year, 35,526 IPS veterans had completed the TIP program. The
        program, however, is not without its critics. For example, the Chief of Police at al-Hillah
        would like to replace the three week TIP course with a longer in-service course that
        would encompass map reading, hostage rescue, night tactics, etc. As in the case of basic
        training, the argument is for hands-on training as opposed to the more theoretical
        approach of the present TIP program.

        The IG Team concludes that the TIP program is a worthwhile and value-added endeavor.
        By definition, TIP training is for in-service IPs, and satisfies one of the MOI’s objectives.
        Many policemen who have attended the course appear to be well motivated and dedicated
        to the concept of a rule of law regime at the service of Iraqi citizens. The TIP training
        imparts skills directly relevant to those objectives. How and whether the TIP program,
        per se, continues will depend in part on the changes proposed by the Minister of Interior.

Specialized Police Training
        As currently organized, there are several specialized forces within the IPS. These include
        the Public Order Brigades (POB) and the 8th Mechanized Police Brigade, collectively
        termed the “Civil Intervention Force” (CIF). Additional specialized forces are the
        Emergency Response Unit (ERU), the Bureau of Dignitary Protection (BDP), Provincial
        SWAT Teams, and the Special Police Commandos.

        The CIF is a Coalition-initiated, high end, national level, civil intervention force trained
        to secure large geographic areas by using military tactics. The CIF is activated to restore
        order in cities where the police have become totally ineffective.


26
  The TIP was conceptualized by ICITAP in the fall of 2002 during an assessment of the police in Kabul,
Afghanistan. In June of 2003 the ICITAP Iraq team adapted the TIP for members of the then fledgling Iraqi Police
Service.



                                                     27
         Civil Intervention Forces (CIF)

         The Public Order Brigades and the Mechanized Police Brigade are national level
         resources designed to counter large-scale civil disobedience and insurgency activities.
         Although initiated by the Coalition, the Iraqi government has sanctioned and accepted
         sponsorship of these units by virtue of their capability to quell large-scale insurrection.
         The POBs have been deployed throughout the country and have proven particularly
         valuable in providing security in large communities where police functions have failed. 27
         The Iraqi intention is to train four POBs, each consisting of three battalions of 400
         personnel each.

         POB training is accomplished through classroom instruction, outside drills, and practical
         applications with extensive weapons and tactics exercises. Law enforcement training is
         limited to police ethics and use of force continuum. A majority of the POB recruits are
         neither IPs nor graduates of a police academy. POB units have successfully deployed
         and participated in counterinsurgency operations. However, the IG Team concludes that
         the modest training they receive in law enforcement is insufficient to their future
         integration into and identity with the IPS.

         Emergency Response Unit

         The ERU provides a
         high-end, national-level,
         law enforcement tactical
         unit capability for high-
         risk search, arrest,
         hostage rescue, and crisis
         response operations.
         Consisting of just over
         370 personnel, the ERU
         is a Coalition-initiated
         capability that has not
         been sanctioned or
         supported by the Iraqi
         government. As a result,
         ERU members are not on
         the MOI payroll, nor                    Figure 5. ERU battalion in battle equipment
         do they have police                                        (OIG photo)
         credentials or
         weapons authorization cards. 28 There are currently three ERU companies, with a fourth
         serving as a headquarters company. Despite non-sponsorship by the MOI, elements of
         the ERU have successfully participated in several high-level missions with remarkable

27
  POBs have been successfully deployed to Fallujah, Samarra, Mosul, and areas of Baghdad to restore order.
28
  At the time of this assessment, pay for these candidates was five months in arrears. Many have quit or dropped
out. The training contractor has tried to provide temporary relief to the trainees by paying each a $75/month stipend.



                                                       28
results. Like the POBs, the ERU companies train and deploy as a unit. Camaraderie,
morale, and esprit-de-corps are high, despite severe pay issues. Nevertheless, given the
lack of sponsorship, attrition is a problem.

The ERU units have no element responsible for gathering, analyzing and disseminating
intelligence. Students interviewed by the IG Team stated that the ERU relies on US
Special Forces for operational intelligence. This intelligence data is filtered through the
MOI, an unwieldy and time consuming process. Formal sponsorship and integration of
the ERU within existing IPS structures would serve to alleviate this problem.
Recommendation 4 addresses this issue.

ERU cadets receive limited basic police training followed by an additional four-week
advanced/specialized course of instruction. Most of the cadets had not gone through
basic police training prior to attending the ERU course.

 Recommendation 12: Coalition planners, in coordination with the MOI, should require
 that cadets first graduate from one of the police academies prior to entering POB or
 ERU training. An in-service police training program should be developed for “currently
 serving” POB and ERU members who are not graduates of a police academy. (Action:
 MNSTC–I in coordination with the MOI.)

Bureau of Dignitary Protection (BDP)

The BDP’s mission is to protect and safeguard high level government officials and
visiting dignitaries. So far, 395 candidates have completed training. There is no
requirement for members of the BDP to be policemen or to have previously received
                                                                    basic police training.
                                                                    BDP agents have no
                                                                    arrest powers, nor do
                                                                    they carry police
                                                                    credentials or
                                                                    weapons’ permits.
                                                                    The MOI does not
                                                                    recognize the BDP.

                                                                    Students undergoing
                                                                    BDP training
                                                                    generally are selected
                                                                    from the guarded
                                                                    dignitary’s family
                                                                    and/or tribe. Based
                                                                    on this selection
                                                                    criterion many of the
trained BDP personnel will be replaced with the April 2005 change in government
leadership. Incumbents to office will select their own trusted agents and relatives to
serve in this capacity.



                                       29
           Provincial Special Weapons and Tactics (P–SWAT)

           Provincial Special Weapons and Tactics (P–SWAT) teams provide a provincial-level,
           high-end, rapid-response, tactical unit responsible for high-risk arrest and hostage rescue
           under the direct authority of the city police chiefs. The teams fall under the operational
           control of the regional chiefs of police and are therefore more responsive than the ERU to
           emerging regional situations.

           These are 27-member teams consisting of a command group, an entry group and an
           assault team. Recruits for P–SWAT training and qualification come from the IPS ranks
           in the provinces wherein the team is assigned. As of this report, seven teams have been
           trained. The P–SWAT program suffers from recruiting and attrition problems, issues that
           are being are being addressed by CPATT.

Advanced Training
           Coalition military forces are the mainstay of security in Iraq, a situation likely to pertain
           for some time. Conceptually, full law and order responsibilities eventually will devolve
           to the IPS. To accomplish that goal, IPS training must expand beyond the basic level and
           include in-depth police science instruction. To address this requirement, CPATT has
           developed advanced training courses, mostly conducted at the Adnan Palace in
           Baghdad. 29 Students in these courses are officers with the rank of lieutenant and above.
           Most of the officers are from the Baghdad area and commute daily from their homes.
           Problematic security en route results in sometimes-spotty attendance.

           The IPS nominates candidates for advanced training. An IPS major general, detailed to
           work with CPATT at Adnan Palace, gets the course schedules. He, in turn, sends a letter
           to the MOI’s “Board of Training,” which then selects the police officers to attend.

           Critics within CPATT and among some instructors assert that the MOI’s selection of
           candidates appears to be based more on cronyism and loyalties than on merit. For some
           attendees, the courses are regarded as a reward, not as a serious professional
           commitment. The IPS major general at Adnan Palace is among those who urge
           incorporation of more rigorous testing as courses progress. He believes that is the only
           way to get and keep the students’ attention.

           Department of Justice (DOJ) instructors for specialized courses at the Adnan Palace
           include professionals from the Federal Bureau of Investigation (FBI), the Bureau of
           Alcohol, Tobacco and Firearms and Explosives (ATF), and the Drug Enforcement
           Administration (DEA). Coordination of these efforts in Iraq is done by ICITAP officials
           within CPATT.



29
     Some courses are also taught at Irbil in northern Iraq.



                                                           30
     Members of the IG Team observed a class on fingerprinting taught by FBI Agents. The
     session was a lecture only using a Power Point projector. There were no associated
     practical exercises. The students seemed attentive and class participation was good. As
     usual, the pace of instruction in class tended to move slowly because of the need for an
     interpreter. A practical exercise in fingerprinting would have better clarified the
     concepts, providing greater student involvement, making the class more interesting, and
     holding the attention of the students.

Ad Hoc Training Programs/Individual Initiatives
     Conceptually, all basic training in Iraq as well as at JIPTC is standardized. However, in
     reality, each of the academy directors has had previous police experience. Not
     surprisingly, the director often has a strong personal view as to what training is most
     relevant, which topics should take priority, and which courses will have the most time
     allocated. This natural inclination to modify the established training has caused
     variations in the curriculum where no two academies teach the same subject matter in the
     same way. An Iraqi General at the Basrah Academy commented that instructors from
     different nations teach similar courses in different ways. This echoes what the IG Team
     learned at JIPTC and is indicative of using a multinational training staff representing
     different traditions and backgrounds.

     The IG Team endorses MNSTC–I and CPATT efforts to ensure common basic training
     throughout the system. At the same time, there is room for individual initiatives in
     meeting special or unique training needs. However, when significant variation in
     instructional methodology occurs, CPATT headquarters should be apprised of its
     existence and the rationale for the variance.

      Recommendation 13: Contractual arrangements with expatriate instructors should
      specify that individually devised training courses will be submitted in advance for
      consideration and possible approval by MNSTC–I and CPATT. (Action: MNSTC–I.)




                                           31
Page intentionally left blank




           32
Chapter 3: Post-Training Issues

Measuring Results
     It is difficult to assess the results of Coalition training programs. A major inhibiting
     factor is the lack of any system by which to track graduates, an issue addressed elsewhere
     in this report.

     A number of American and other expatriate interlocutors express doubts about the
     effectiveness of the IP training program:

        • “. . . we are preparing them (the IP) for failure….”
        • it is “. . . widely perceived that the police are under-trained and underpaid….”

     In several conversations with the IG Team, CPATT and Embassy officials outlined the
     need to rebuild “failed forces” such as those in Najaf, Samarra, Fallujah, sections of
     Baghdad, and Mosul where IP units had “completely collapsed” under attack.

     The International Police Liaison Officers’ (IPLOs) daily reports chronicle disturbing
     accounts of instances in which IPS personnel are not professional in the performance of
     their duties. There are frequent reports of breakdowns in discipline, feuds among police
     units, and prisoner abuse. In the absence of viable tracking systems, the IG Team is not
     able to determine whether or to what degree Coalition-trained police may be perpetrators
     of such actions. The failure to impose proper discipline rests with IPS leaders (some of
     whom have been directly, even violently, involved in the unseemly questionable
     incidents). The examples set by poor leaders for Coalition-trained personnel (mostly new
     recruits) bode ill.

     Counter to negative reports are the positive accolades related to (1) the IP’s
     commendable performance during the January 30 elections, (2) their notable visibility on
     the streets, and (3) the rising public confidence in the IPS. Such indicators underscore
     the broader achievements of the training programs. Whatever the problems and
     misgivings, there is consensus that the IPS is improving and is more capable because of
     Coalition training.

     In the absence of incorporating a useful, individual tracking system within the MOI and
     the possibility of a more robust mentoring system, the best—arguably the only—
     available measure of success of the training programs is the day-to-day performance of
     the cops on the “beat.”

Leakage: Trainees Who Do Not Enter Police Ranks
     Since inception of the Coalition training effort, a nettlesome issue has been the fact that
     some graduates do not enter the IPS after completing training. Keeping track of the
     numbers trained but not assigned is an elusive problem. Some U.S. sources assert that


                                            33
        the number might be as high as a third or more of those who have gone through basic
        training.

        The causes for this ‘leakage’ are multiple. An undetermined number of those trained
        simply disappear from CPATT or MOI visibility. The ‘no-show’ motivations apparently
        range from family or tribal pressures through offers of other employment to fear of
        entering what is obviously a very dangerous profession. At least as troublesome is the
        failure of the MOI to employ graduates. The IG Team credits reports that some returnees
        report to police stations only to be turned away on the pretext that the relevant police
        chief did not recruit them, and therefore has no obligation to put them on the force. This
        aspect is most pronounced in relation to trainees from JIPTC.

        Although some ‘wastage’ is reasonable to anticipate, efforts to minimize the problem are
        needed. The Team suggests that the MOI should establish a documentation file on each
        candidate prior to the start of training. Such a measure should define MOI’s commitment
        to hire the person upon completion of training. Another measure is the issuance of Police
        identification cards, which should be completed in five to six months.

          Recommendation 14: A non-binding agreement should be negotiated by the U.S.
          Government with the Iraqi Ministry of Interior that specifies that only applicants in
          possession of MOI-issued identification cards, explicitly stating that the bearer is a
          member of the IPS, will be accepted for training by the Coalition. (Action: MNSTC–I
          in coordination with CPATT and Embassy Baghdad.)

        As a response to the pressing need to quantify and rationalize the number of active duty
        police, the MOI (with MNSTC–I support and assistance) has created a Qualifying
        Committee (QC) to gather biometric data which can be used to maintain a census and
        demography of the ministry. Theoretically, the QC process will enable the MOI to
        identify those who should be removed from the payrolls. 30 Likewise, the process should
        create a database for use in personnel tracking. The QC vetted over 55,000 records as of
        March 2005, and another 37,000 were in process at the time of this assessment. Since the
        effort began in September 2004, the QC had completed the first round of collection in 13
        of Iraq’s 18 provinces. Officials plan to establish a few permanent data collection sites in
        these provinces.

Police Partnership Programs
        In an effort to maintain momentum on rebuilding failed IPS forces, CPATT developed,
        with MOI concurrence, a Police Partnership Program (P3). The plan embeds military and
        IPLO teams within the ministry, in provincial police headquarters, and at police stations
        in the cities where the IPS failed (e.g., parts of Baghdad, Mosul, Samara and Fallajuh).
        The principal function of the P3 teams is to provide hands-on leadership. One of the key
        elements of this program is to identify leaders within the IPS and MOI, and assist those
30
  In view of deep-rooted family and tribal loyalties, the IG Team concludes that purging of MOI rolls is an
objective difficult to achieve.



                                                      34
        leaders fight the insurgency. As such, P3 is a natural extension of mentoring and a means
        to help develop IPS leaders.

        A pilot P3 program became operational recently in Baghdad. The initial results reported
        to the command were very positive and measurable in assessing the development of the
        IPS as they progress toward a self-sustaining institution.

        At provincial police headquarters, the P3 teams assist senior IPS officers learn decision
        making skills. These P3 teams consist of subject matter experts who support their IPS
        units in nine functional areas:

              •   intelligence
              •   operations and plans
              •   personnel administration
              •   logistics
              •   finance & contracts
              •   counter-insurgency
              •   special police operations
              •   communications
              •   training

        Team leaders coordinate efforts to foster good policing. P3 teams coordinate security and
        transportation arrangements with the local Major Subordinate Commands (MSCs). Team
        leaders are charged with cultivating productive interpersonal relations with the IPS
        leadership.

Equipment and Readiness
        In addition to training, the Coalition forces are providing equipment for the IPS. Since
        June 2004, MNSTC–I has facilitated the distribution of equipment to Iraqi security
        forces. MNSTC–I has simplified the process for equipping the police. Establishing
        requirements via a TO&E is a critical first step in identifying the readiness state of IPS
        elements. To transfer “on-hand” data to a TO&E would be a difficult task given the
        security situation. Nevertheless, it is essential in order to gain proper visibility and
        control over equipment needs and distribution.

          Recommendation 15: Tables of Organization and Equipment should be developed for
          police stations and deployable police units throughout the country. (Action: MNSTC–I
          in coordination with MOI.)

        The numbers of participants involved in training and equipping the police, 31 plus the
        problems associated with corruption in the system, often mean that equipment needs are

31
  In addition to MNSTC-I logistics resources, IPS police stations frequently receive ammunition and weapons
directly from the Major Subordinate Commands.



                                                    35
        disproportionately met. This variance is apparent at the recruit training centers. At the
        Baghdad Police College, for example, recruit graduates are issued the 9 mm Glock
        sidearm upon completion of training, a practice no longer observed at JIPTC. 32

        Clearly there is a need to standardize issuance of equipment. While the IG Team did not
        specifically examine the process by which the Coalition supplies the IPS, we were
        informed that IPS units have routinely received equipment and supplies, in many
        instances, from various Coalition sources outside a structured tracking system. The
        question of accountability for controlled equipment is particularly critical. The
        availability of weapons, ammunition, and explosive materials is a major factor in the
        prevailing security environment. The specter of weapons issued to members of the IPS
        but falling into the wrong hands is a concern. Both the Military Police (MPs) and IPLOs
        work to inculcate the principles of accountability when they visit IPS units.

         Recommendation 16: Coalition authorities should establish internal control
         mechanisms to track transfer and accountability of equipment to the IPS. (Action:
         MNF–I in coordination with MNSTC–I and MNC–I and in consultation with MOI.)

        The MOI has no centralized readiness reporting system for police units that includes
        equipment status, nor is there in place an automated database system with which senior
        management can monitor equipment issues. A basic command and control system is
        being established to connect police stations to their regional command centers, thence to
        a national monitoring system. When operational, this will be a major tool for improving
        effectiveness of the IPS.

        Under CPATT guidance, IPLOs and MPs periodically complete IPS Facility Assessment
        Forms for each police station visited. When completed, these forms provide extensive
        information on the manning, training, and equipment status for each site visited. Thus
        far, only a small fraction of the estimated 940 police stations have been assessed using
        this tool.

        As the Coalition seeks to transfer complete responsibility for IPS manning, training, and
        equipping to the Iraqi government, it seems reasonable to accelerate development of a
        functional IPS Readiness Reporting System. The inherent utility of the Facility
        Assessment Form (or similar form) is obvious and it can be used to support a Readiness
        Reporting System.

        With the deployment of Police Partnership Program (P3) teams to the provinces and
        within MOI, CPATT has an opportunity to assist in developing a readiness reporting
        system as a means for tracking the status of IPS preparedness. Coalition teams can
        coordinate efforts to demonstrate the usefulness of a readiness reporting tool throughout
        the IPS command structure. Iraqi understanding and acceptance of accurate and timely

32
  Apparently BPC issues the weapons as a motivational tool, a reward for successful completion of the training
course. The practice was discontinued at JIPTC when it was determined that many of the JIPTC graduates were not
subsequently employed as policemen. Anecdotally, many of those who were employed supposedly had to surrender
their weapon to senior officers for their personal use.



                                                    36
        reporting requirements are crucial. Development of a readiness reporting methodology
        that embraces Iraqi input would ensure sustained ownership of the system.

          Recommendation 17: Coalition resources, in close coordination with counterparts in
          the MOI and IPS, should develop an operational IPS Readiness Reporting System for
          the MOI. (Action: MNSTC–I in coordination with MOI.)

Mentoring
        A strong mentoring program is integral to the concept of training Iraqi police. Initially,
        this was to be the function of IPLO field training officers, each working closely with a
        small number of policemen who had received basic training. This concept would mirror
        a model that worked satisfactorily in Bosnia and Kosovo. INL contracted with DynCorp
        to provide the IPLOs. The first 24-member contingent arrived in Iraq during November
        2003. Most IPLOs are retired policemen. By March 2005, this number had risen to
        about 500 (Figure 7 below). 33 INL has proposed funding for an additional 400 IPLOs.

        In actuality, the mentoring program in Iraq has not materialized as planned. The security
        situation is so precarious that any post-training mentoring is, at best, intermittent. There
        have been periods during which the IPLOs were unable to move beyond the confines of
        their quarters. 34 Consequently, IPLO interaction with Iraqi policemen is largely with
        instructors/supervisors at the BPC and regional academies or during periodic visits to
        police stations. To accomplish the latter, the IPLOs must rely on Coalition military
        forces for transportation and security. The military police (MP) who provide that
        logistical assistance act as additional mentors once on site.

        As the security situation has evolved, so has the work of the IPLOs. IPLOs now devote
        much of their time and attention to assessing police stations and units. There, the IPLOs
        gather data on equipment status and availability, discipline problems, and reports of
        incidents involving the IPS. This is documented in Police Station Monthly Reports
        (PSMR), which are derived from the Facility Assessment Forms prepared by MPs and
        IPLOs. In theory, this information will enable the MOI to more effectively manage both
        personnel and material resources of the IPS.

        Lines of authority and responsibility for mentoring are not well defined. As the contract
        administrator, INL has administrative responsibility for the IPLO program. This includes
        providing life support (e.g., food and lodging, basic security, etc.). CPATT provides
        operational control. However, Coalition military officials tend to rely on MPs for the
        mentoring function. Consequently, the IPLOs are sometimes underutilized.



33
   As of 1 May 2005, the IPLOs were assigned as follows: Region I - Baghdad (98), Region II – Tikrit (94), Region
III – Mosul (30), Region IV – Ramadi (34), Region V – Babylon (43), Region VI – Basrah (24), with the CPATT
command staff (9), National Assets Bureau (75), Administrative Bureau (26) and various other areas (63).
34
   On March 9, 2005— during the course of this assessment— a massive suicide truck bomb targeted the al-Sadeer
Hotel in Baghdad. Thirty-five IPLOs were injured, the most serious casualty with the loss of an eye.



                                                     37
Figure 7. Growth of International Police Liaison Officer Presence in Iraq 1

Recommendation 18: Coalition commanders should conduct a requirements analysis
to determine the number of IPLOs who can be gainfully engaged under prevailing
circumstances and adjust the number of these mentors accordingly. (MNSTC–I in
consultation with Embassy Baghdad and INL.)

Recommendation 19: Standard operating procedures should be developed for the
IPLOs, to define the relationships and responsibilities among the police liaison officers
and military police. (Action: MNSTC–I in consultation with Embassy Baghdad and
INL.)




                                     38
Chapter 4: Looking Ahead

Whither the Jordan International Police Training Center
        With modest exceptions, recruiting non-American, international police instructors to
        work inside Iraq is difficult. From the outset, an important objective was to involve as
        many governments as possible in the IPS coalition training process. Consequently, the
        training center was established outside Iraq and in Amman, Jordan

        Negotiations between the Coalition Provisional Authority (CPA) and the Public Security
        Department (PSD) of Jordan cleared the way for creation of the Jordan International
        Police Training Center (JIPTC). Upon the June 2004 transition from the CPA to the
        Interim Iraqi Government (IIG), U.S. Government stewardship of this Center devolved to
        the Department of State’s Bureau for International Narcotics and Law Enforcement
        Affairs (INL). Thereafter, the agreement was renegotiated on a government-to-
        government basis between the U.S. and Jordan. 35

                                                                                         On April 18,
                                                                                         2003, INL
                                                                                         awarded a
                                                                                         contract to
                                                                                         DynCorp
                                                                                         International.
                                                                                         Initially conceived
                                                                                         to be the
                                                                                         mechanism via
                                                                                         which to employ
                                                                                         IPLOs, the
                                                                                         contract evolved
                                                                                         and assigned to
                                                                                         DynCorp the
                                                                                         responsibility for
                                                                                         construction,
                                                                                         operation, and
                                                                                         maintenance of a
          Figure 8. Aerial view of Jordan International Police Training                  training center at
                                     Center                                              Muwwaqqar,
                                      (Courtesy: JIPTC)                                  about thirty miles
                                                                                         northeast of


35
  “Letter of Agreement between The Government of The Hashemite Kingdom of Jordan and The Government of
the United States of America Concerning the Training of Iraqi Police in Jordan,” signed September 24, 2004.



                                                   39
        Amman, Jordan (Figure 8). 36 Construction began in the fall of 2003, and the facility was
        up and running within three weeks. The first class of 456 Iraqi cadets arrived in
        November 2003. As of the time of this assessment, the U.S.-incurred costs for this
        remarkable accomplishment were $89,558,000 in completed construction and
        $98,110,000 in operating and maintenance costs (O&M) between November 2003 and
        January 2005. In addition, $15,970,000 will be spent on pending construction. 37 By
        present agreement, JIPTC is to revert to full and direct Jordanian ownership around
        February 2006, when it is anticipated the original goal to train 32,000 Iraqis at JIPTC will
        be met. 38

        As noted previously, insofar as is possible, MOI’s strong preference is to conduct as
        much IP training as possible inside Iraq. Another dynamic is MOI’s decision to
        discontinue training of raw recruits in favor of in-service training. These considerations
        drive resource implications for JIPTC, even if training of Iraqis at that venue continues
        for some time. That, in turn, will entail development of different curricula and,
        conceivably, recruiting instructors with skills different than those presently engaged.

        The IG Team concludes that as the MOI assumes increasing responsibility for and control
        of the programs, use of JIPTC facilities for training of Iraqi cadets may be discontinued
        altogether. Any such decision by the MOI would raise multiple concerns. The
        involvement in IP training by some Coalition partners—importantly to include Jordan—
        would be at risk. Despite a history of often-troubled bilateral relations between Baghdad
        and Amman, the Jordanians arguably are the non-Iraqi Arabs most supportive of efforts
        to stabilize the situation in Iraq. The political legitimacy and outreach of the Iraqi
        Transitional Government (ITG) will be diminished if other governments withdraw from
        participation at JIPTC.

          Recommendation 20: The Department of State must keep Coalition governments
          apprised of developments at JIPTC, specifically those that relate to provision of training
          staff at that facility. (Action: Department of State’s Bureau of Near Eastern Affairs in
          consultation with INL.)

        Under any anticipated scenario, future utilization of the JIPTC facility will come into
        focus when the targeted goal of 32,000 Iraqis complete training there. Some
        consideration is being given to transforming the facility into a regional International Law
        Enforcement Academy (ILEA), similar to those established in Hungary, Botswana, and
        Thailand. The permissive operating environment in Jordan has obvious merit, as does
        proximity to regional governments that might want to send trainees there. Conversion of
        JIPTC concomitantly would give the U.S. Government a better return on its investment.
36
   The State Department OIG conducted a contract procurement audit of this contract (AUD/IQO-04-47, September
2004).
37
   Figures supplied by JIPTC. Without reflecting additional expenditures (e.g. post January, 2005 O&M costs), the
costs— assuming achievement of the JIPTC goal of 32,000— would be about $6,364 per trainee.
38
   During fieldwork for this assessment, negotiations were undertaken to extend the U.S – Jordanian agreement
through June 2006. Concurrently, plans were in train to recruit international instructors for that extended program
duration.



                                                      40
Informal soundings indicate that the Government of Jordan may be amenable to such a
proposal.

 Recommendation 21: The Department of State should decide whether and where an
 ILEA should be established in the Middle East. If Jordan is selected as a venue,
 negotiations for such a transformation of JIPTC should proceed quickly. (Action:
 Department of State’s Bureau for Near Eastern Affairs in consultation with INL.)

One of the issues particularly vexing in relation to training at JIPTC is the MOI’s
frequent tardiness in paying the cadets. By agreement, cadets are paid after the first four
weeks of instruction and upon graduation. The failure of the MOI to forward salary
funding on a timely basis (and, hence, JIPTC’s inability to pay the cadets) has prompted
serious disturbances. To forestall such incidents, INL on seven occasions (prior to mid-
April 2005) ‘advanced’ funds against an MOI commitment to reimburse the amounts.
MOI did not provide funds to cover salary payments due on April 24 and 26, 2005.
Hence, JIPTC requested an advance of $429,350 to cover those costs. That brought MOI
arrearages to approximately $840,000. Although INL staff has concluded that the
procedure is permissible, this episodic financial exposure and vulnerability incurred by
INL is troubling.

To address this problem, the JIPTC Director is pressing to have MOI make the second
payment when the trainee returns to Iraq. Such a solution would help solve the tracking
problem previously discussed and establish a procedure for enrolling graduates on the
IPS roster. This procedural improvement should be pursued. It only partially addresses
the problem, since MOI delinquency in making the first salary payments might still
occur.

 Recommendation 22: Coalition commanders should obtain from the Iraqi Ministry of
 Interior a written commitment to assume responsibility for direct payment of the salaries
 of Iraqis trained by the Coalition at JIPTC. (Action: MNF–I in coordination with
 MNSTC–I and Embassy Baghdad, and in consultation with MOI)

Coordination between CPATT officials and JIPTC staff considerably improved with the
assignment of a CPATT liaison officer in early 2005. High-ranking MNSTC–I and
CPATT officials visit JIPTC with some frequency, normally to attend graduation
ceremonies. Although some JIPTC instructors and staff desire more feedback from Iraq,
the IG Team was impressed with the constructive dialogue among stakeholders.

Even so, it is difficult for JIPTC instructors to fully relate to the circumstances that will
confront trainees once they are full-fledged members of the IPS. Direct exposure by
International Police Trainers (IPTs) to the ‘street situation’ in Iraq would be of significant
value. JIPTC leaders are pursuing the concept of an exchange of instructors to achieve
that end. Not all of the 16 governments presently represented among the JIPTC staff will
permit members of their respective contingents to go to Iraq. Individual instructors also
may not be willing to do so. However, the IG Team strongly endorses this initiative.




                                       41
Guiding the Ministry of Interior on Target
        The lack of SOPs and utilization of even basic information technology hampers the MOI
        ability to manage the IPS. High on the list is the need for a centralized, computerized
        financial management and personnel system.

        During the CPA period, Coalition officials—primarily Americans—were de facto
        ministers throughout the Iraqi governmental structure. With the June 2004 transition to
        the Iraqi Interim Government (IIG), the Iraq Reconstruction Management Office (IRMO)
        was created within Embassy Iraq. 39 As Iraqi officials assumed leadership of ministries,
        the CPA-appointed officials ceded place to IRMO advisors. As with many CPA
        advisors, the latter are appointed as ‘3161’ U.S. Government employees. 40

        Establishing and maintaining internal security remains the top priority of both the
        Coalition and the Iraqi Transitional Government (ITG). It follows that assigning advisors
        to the MOI commands more IRMO personnel resources than any other area of
        governance. IRMO staffing plans provide fifty-one ‘3161’ personnel to the MOI. In
        practice, only thirty-five are assigned—still the largest number of advisors within any
        Iraqi ministry. The IRMO senior advisor and his immediate staff have offices collocated
        with one of those of the Minister of Interior. At the time of this assessment (with the IIG
        still in place), that advisor met with the Minister on a daily basis, sometimes several
        times each day. The advisor’s focus appropriately was on broad policy issues, to include
        those relative to police training.

        While the work of the senior advisor has been very important and largely successful, the
        IG Team perceives that IRMO assistance to the MOI should advance to more technical
        levels.

        At present, the MOI personnel management system is conceptually centralized, but lacks
        key feedback mechanisms. The system is not computerized, nor does the system deal
        with payroll issues. Personnel and payroll are interrelated functions, but are handled
        independently. Payroll is managed on a manual, ledger basis. Data collected by the
        Qualifying Committee will be grist for developing modern payroll and personnel
        administration within the ministry.

        The assignment of advisors to the MOI must match mutually perceived needs and
        capabilities. The IG Team shares a view expressed frequently by Coalition and Embassy
        Baghdad officials that the greatest immediate need is for assistance in technical areas.
        However, as on other issues involving interaction on police training, the requirements for
        advisors to the MOI must be defined in close consultation with ITG officials.



39
  IRMO is conceived as a temporary organization. The office is under authority of the Chief of Mission.
40
  Section 3161 of 5 U.S.C. provides for the establishment of temporary organizations under law or executive order,
exempt from federal employee hiring requirements, e.g., classification and competition.



                                                     42
      Recommendation 23: Embassy Baghdad should work with the Iraqi Ministry of
      Interior to define areas in which Coalition advisors can play useful roles. (Action:
      Embassy Baghdad in collaboration with IRMO and consultation with MNSTC–I.)

      Recommendation 24: Top priority should be given to recruiting ‘3161’ personnel
      qualified to fill positions as defined jointly by Embassy Baghdad and the Iraqi Ministry
      of Interior, then to assigning a full complement of such advisors to the Ministry of
      Interior. (Embassy Baghdad through IRMO.)

     Elsewhere in this report is a discussion of the Qualifying Committee (QC), the joint
     Coalition/MOI effort to establish baselines for MOI employees. As of March 2005, the
     QC process had collected data on about 92,000 MOI employees in 13 of Iraq’s 18
     provinces.

     Presumably the majority of those on whom data is collected are members of the IPS.
     Once organized and readily accessible, this material will enable the MOI manage the
     force in terms of assignments, promotion, discipline, mentoring, and additional training.
     So long as the Coalition and/or Embassy Baghdad are involved in police training, it is
     imperative to have access to such information. Equally important is the need for SOPs
     for IPS personnel administration.

      Recommendation 25: Embassy Baghdad should obtain from the MOI a written
      commitment to assure Coalition authorities can access data relevant to tracking and
      mentoring IPS personnel trained in U.S. Government-funded programs. (Action:
      Embassy Baghdad in consultation with MNSTC–I.)

      Recommendation 26: Coalition and MOI officials should develop standard operating
      procedures for personnel administration of the Iraqi Police Service. (Action: MNSTC–I
      in coordination with Embassy Baghdad.)

Intra-USG Coordination

     Disregarding, for the moment, international participation in Iraq’s security development,
     the complex interrelationships of U.S.-only organizations involved in developing a viable
     IPS are daunting and problematic. The resources being invested in developing security
     within Iraq and the importance attached to that effort require harmonious and close
     working relationships among the various USG agencies concerned. Thus far,
     coordination among agencies has been collegial.

     Part of the problem is the number and variety of participants. NSPD–36 gives the DoD
     lead responsibility in rebuilding the IPS. However, DoD must solicit assistance from
     other agencies that specialize in nation-building activities. For reconstitution of police
     functions in a nation-building scenario, the DoD must rely on the expertise resident in
     other agencies. These agencies include the State Department’s Bureau for International
     Narcotics and Law Enforcement Affairs (INL) and the Justice Department’s International
     Criminal Investigative Training and Assistance Program (ICITAP). Additionally,


                                           43
           consultants from the Iraq Reconstruction Management Office (IRMO) serve an important
           advisory role in assisting the Ministry of Interior develop policy and processes for the
           IPS.

           To focus the overall security training and equipping effort in Iraq, DoD established the
           Multinational Security Transition Command–Iraq. Under MNSTC–I, the Civilian Police
           Assistance Training Team (CPATT) has the lead for police issues.

           ICITAP has continuously engaged the Iraq police training issue since early 2003. They
           have an active voice in policy issues by virtue of maintaining a presence on the CPATT
           staff. 41 Such is not the case with INL. Organizationally, INL maintains a separate two-
           person office in Embassy Baghdad providing administrative support for contracted IPLOs
           in Iraq, but they are on the periphery of the in-country decision-making team.

           Institutional and philosophical differences in approach exist between MNSTC–I and INL
           with regard to training police. INL (and ICITAP too for that matter) views police
           training as a subset of an overarching criminal justice, institutional development
           continuum. Theirs is a long-term view. They recognize the critical importance of
           developing a transparent, community policing function that is intimately linked to the
           court and prison systems. INL knows that when the military mission is completed, the
           police development mission will revert to them.

           In contrast, MNSTC–I has a more short-term view. As a military organization, MNSTC–
           I is interested in completing the mission; at the moment that mission is to train, equip,
           and deploy 135,000 IPs. The military metric for success is “hitting the number.” Thus,
           the sooner the mission is completed, the sooner success is attained.

           The IG Team recognizes the value an outside voice brings to the spirit of debate.
           However, the team is convinced that the interests of all parties would be better served if
           INL were represented “within” the organization responsible for mission accomplishment.
           Given the eventual transition of responsibility, from DoD to DoS, for U.S. involvement
           in Iraqi police training coordination, active INL engagement at the appropriate level
           within the Coalition military establishment would be especially valuable in developing
           plans for that changeover.

            Recommendation 27: The Department of State should assign one or more INL officers
            to work directly within CPATT to ensure INL perspectives are considered in the
            development of the IPS. (Action: Department of State in coordination with Embassy
            Baghdad and MNSTC-I.)




41
     One of the principal deputy commanders at CPATT is from ICITAP.



                                                    44
                  Figure 9. Coalition police training coordination/relationships
                                             (Courtesy: MNSTC–I)

        Coordination between the trainers and war fighters within the MNF–I family is an issue.
        Figure 9 above reflects the top-level command relationships within MNF–I with respect
        to police training. Multinational Corps–Iraq (MNC–I) exercises tactical command over
        the military Major Subordinate Commands (MSCs), 42 but MNSTC–I must coordinate
        through the MSCs to obtain police recruits, to obtain IP station assessments, and, in some
        cases, to have the regional MPs provide local police training. The MP Brigade in the
        Baghdad area worked very closely with CPATT/MNSTC–I to provide services and
        assistance to the local police. But service provided in distant provinces is often “hit-and-
        miss” and not coordinated through a single command structure. This is evident in the
        shotgun approach to equipment issuance. There is no single source for equipping the
        Iraqi police. Sometimes they receive their supplies from MSC sources, at other times
        from MNSTC–I sources. The establishment of the Provincial Police Partnership Teams
        should help to alleviate this problem.

Toward Disengagement: Transitioning Police Training to the Iraqis
        Unless and until the Iraqi government, through the MOI, takes full “ownership” of the IP
        training program, the Coalition will fall short in helping to create an effective police
        force, with the attendant result of prolonged military deployment in country. Transfer of
        ownership to the Iraqi government will involve more than the mere development of

42
  The Major Subordinate Commanders exercise control over the six major geographic areas of responsibility
(AORs) within Iraq.



                                                    45
police infrastructure and processes, but a deliberate effort to have the Iraqis make the
decisions about its police force structure and the training attendant to it.

Perhaps the first and most obvious step in migrating control of the police training
function to the Iraqi government is to ensure they are completely engaged in decisions
about their training today. This has not always been the case. Heretofore, Coalition
process has followed the example set by the CPA—directing by decree rather than
collaborative engagement. A senior CPATT official told the IG Team, “…many of us do
not realize that CPA has gone away. We have not asked the Iraqis what they want or
need.” This attitude is evident in Coalition initiatives to establish, under the MOI, the
Emergency Response Unit (ERU) or the Bureau of Dignitary Protection (BDP). The
MOI was not consulted on their development, disavows ownership of them, and provides
only grudging support. Referring to Coalition-initiated police units, the same CPATT
interlocutor continued, “…the MOI was not engaged, does not want them. We are
interfering with their sense of operations/order.”

MNSTC–I and CPATT have made positive strides in this area. They have meetings with
Iraqi counterparts regarding training issues on a daily basis. CPATT has assigned a large
number of its personnel to act as consultants, in coordination with IRMO, to various parts
of the Ministry of Interior. They are also integral parts of the Police Partnership Teams
assigned to the MOI.

As responsibility for police training moves to the Iraqi government, the Coalition needs
to shift correspondingly into a strictly support role. This can be accomplished by
continuing to provide policy advisory services through IRMO and sustained manning of
the P3 or similar programs.

The “handoff” of responsibility for IPS training and force development will be a process,
not an event. Attention must be given to formulating—in close consultation with Iraqi
counterparts—an agreed upon plan for that process. The relegation of responsibility for
police training need not be limited to the upper level management of the MOI in
Baghdad. Coalition planners should recognize that ownership of portions of the overall
program can and should proceed at a different pace in different regions of the country.
Security within the Kurdish region, for example, is already sufficiently developed that
Coalition military involvement in IP recruiting and training can be significantly reduced.
Similarly, some areas in southern Iraq are adequately stabilized to the point where a
move toward complete Iraqi responsibility for training may be accelerated.

 Recommendation 28: MNSTC–I should perform an assessment of security and IPS
 infrastructure development by province to identify opportunities where additional
 responsibility for IPS training can be transferred to Provincial Police. (Action:
 MNSTC–I in consultation with the MOI.)

As Iraqi leadership assumes more responsibility for the planning and operation of the IPS
training and force development process, great care must be exercised to allow them the
leeway to use their own initiative and allow them to occasionally “fail.” Achieving the



                                       46
          delicate balance between support and dependency is crucial to developing a robust
          system capable of operating on its own.

Future U.S. Involvement in Police Training
          At an unspecified date, responsibility for U.S. interaction with the Iraqi government on
          security matters is to shift from the DoD to DoS. 43 The Secretaries of State and Defense
          are to determine the timing of that transition. The IG Team subscribes to the proposition
          that this shift will depend on when Iraq emerges from the existing environment of
          conflict. Nevertheless, it is timely to plan for the post-conflict role for the U.S.
          Government in organizing, equipping, and training the Iraqi security forces, specifically
          the IPS.

          In relation to the IPS, shifting direct authority to the Secretary of State and Chief of
          Mission (COM) will entail a corollary transfer of responsibility from MNSTC–I and
          CPATT to INL. Previous extensive INL experience in conducting police training,
          buttressed by a supporting role in present IPS programs in Iraq, prefigures what should be
          a smooth transition.

          Issues to be addressed in anticipation of the changeover include the nature of future
          engagement (e.g., whether this will entail instruction by U.S. Government employees
          and, if so, how many). Similarly, if INL-supervised training is to be performed by
          personnel from other agencies (notably, Department of Justice ICITAP, ATF, or FBI
          employees) or by contactors, preliminary plans should define issues such as numbers
          required, tours of duty, etc. The presumption of a non-conflict environment (or much
          lower level of violence than at present) does not preclude the necessity to project
          security-related requirements that will devolve to the Department of State as Coalition
          military forces draw down.

            Recommendation 29: The Department of State should propose that the National
            Security Council establish an inter-agency working group with representatives from the
            Departments of State, Defense, and Justice. The working group should identify issues to
            be addressed for the transfer of police training responsibilities from DoD to DoS.
            (Action: Department of State, Bureau of Near Eastern Affairs, in consultation with
            Embassy Baghdad, MNF–I, MNSTC–I, and INL.)

          Logically, control over funds appropriated for programs relevant to U.S. Government
          involvement in IPS programs should rest with the Department responsible for those
          programs. Nonetheless, legislation under consideration states that such control will
          remain with the Department of Defense. Whether or not that formulation prevails,
          preparation of interdepartmental agreements on responsibility for financial management
          (specifically to encompass internal controls) will make the transition of program
          responsibilities smoother.

43
     NSPD-36 of May 11, 2004.



                                                47
Recommendation 30: The Departments of State and Defense, in consultation with the
Office of Management and Budget (OMB), should prepare a memorandum of agreement
(MOA) to define funding arrangements for future U.S. involvement in Iraqi Police
Service-related programs. (Action: Department of State’s Bureau of Resource
Management (RM) and Department of Defense’s Office of the Under Secretary for
Policy in consultation with OMB.)




                                 48
Chapter 5: Informal Recommendations


    1. Issue: At JIPTC, one of the aspects of poor discipline is related to a misperception
    among cadets of what conditions/regulations pertain at that facility. For example, some
    of those interviewed by the IG Team expressed surprise at the fact that they are not
    permitted to leave the base. Others asserted that they had not been informed about limits
    on communicating with their families in Iraq, etc.

       Recommendation: Prior to departure from Iraq, JIPTC enrollees should be given
       orientation on living conditions, rules, and regulations that will form the framework
       of their experience while in Jordan. The orientation should be crafted by JIPTC staff,
       approved by CPATT, and conducted by IP personnel.

    2. Issue: At each of the IP training facilities visited by the IG Team in Iraq, cadets are
    responsible for cleanliness and appearance of their barracks. In addition to instilling
    discipline and a sense of responsibility, this is cost effective. Contrarily, at JIPTC a
    commercial contractor performs these housekeeping chores.

       Recommendation: When and as permitted under the existing contract, trainees
       should be responsible for maintaining barracks at JIPTC, preferably monitored and
       enforced by Iraqi instructors or group captains.

    3. Issue: Few among the cadre of international instructors speak Arabic. The need to
    work through consecutive interpretation using language assistants (LA) slows the process
    measurably. It also poses issues of quality of interpretation (depending on the skills of
    the respective LA) and the possibility that the LA, deliberately or inadvertently, takes
    over the function of the instructor. The need for interpretation could be reduced through
    greater use of audiovisual instruction (specifically on material such as Iraqi law).

       Recommendation: CPATT should work with the MOI to develop audiovisual
       presentations on select classroom topics. These materials should be narrated by
       Iraqis, thereby ensuring greater comprehension. With such audiovisual material
       presented to classes at all academies, an additional benefit would be standardization
       of instruction on these topics.

    4. Issue: There is a widely held perception that the advanced courses for IP, most
    conducted at Adnan Palace in Baghdad, are too short in length and that numbers of
    candidates for these courses are selected by the MOI on non-merit criteria. The course
    content should also be under continuous review.

       Recommendation: CPATT should work with the MOI to establish formal criteria
       for IP nominations for advanced training and to assure concurrence on the content
       and duration of such training.




                                           49
5. Issue: Corruption across the range of Iraqi officialdom is accepted, prima facie. The
MOI and IP are far from immune. In interviews with the IG Team, several cadets said
they had ‘paid’ agents to be enrolled in IP training. Other interlocutors were blunt in
asserting that chiefs of police ‘take a cut’ from IP salaries. Some report that IP must buy
weapons and ammunition.

   Recommendation: Although U.S. Government officials cannot impose and enforce
   integrity on Iraqis, training courses should include units on ethics, anti-corruption,
   personal responsibility, principled governance, and recourse to units (e.g., the
   Commission on Public Integrity – CPI) charged with ferreting out corruption.

6. Issue: At JIPTC and other police academies, codes of conduct are distributed to
cadets. The IG Team was informed that no such standardized guidelines exist for IP on
the active duty force.

   Recommendation: CPATT should work with the MOI to develop and disseminate a
   code of conduct for the IP.

7. Issue: A common complaint among IPLOs and some other expatriate instructors or
mentors is that there is insufficient communications (especially feedback) from MNSTC–
I and CPATT.

   Recommendation: MNSTC–I and CPATT should consider more systematized ways
   of exchanging views with the IPLOs and other instructors or mentors.

8. Issue: At police stations visited by the IG Team, the IP concept of ‘community
policing’ was equated with distribution of ‘goodies’ to people in the precincts. Since
access to such material items was essentially that of Coalition forces, the IP regarded
their role to be that of helping with the distribution. Suggestions that the IP have a
capacity to do some things on their own (perform other community services—e.g.
painting a school, cleaning up an open area, coaching sports, etc.) appeared novel to the
IP.

   Recommendation: CPATT should strengthen the community-policing segment in
   the training curricula and follow through with mentoring of the IP force. Actions to
   engage IP in community policing should be incorporated as an item for observation
   and recording in the IPLO Daily SITREPS submitted by MP and IPLO observers to
   CPATT.

9. Issue: There are between 750,000 to 1 million refugees and internally displaced
persons (IDP) in Iraq. Because of the nature of their socio-economic situation, this
segment of the population presents some special law and order challenges.

   Recommendation: Coalition planners should ensure that the situation of refugees
   and IDP are discussed specifically in training classes dealing with human rights and
   community policing.




                                       50
10. Issue: In the aftermath of a March 9 truck bomb that targeted the al-Sadeer Hotel in
Baghdad, the Charge d’affaires visited the site and discussed issues with about 35 IPLOs.
Among issues raised was the absence of SOPs for these liaison officers.

    Recommendation: CPATT, in conjunction with INL and coordination with
    DynCorp, should develop and distribute SOPs for IPLOs working in Iraq. The SOPs
    should delineate responsibilities between MP and IPLO personnel who mentor IP and
    visit stations.

11. Issue: The MNC–I Corps Police Service Recruiting standard operating procedure
(SOP), dated 21 January 2005, part 2 section 2c, states that “…MSCs should partner with
their respective local IPS officials in submitting applicant information to obtain criminal
history records.” Additionally, part 3 section 4c, of the SOP provides that, “…if
practical, MSCs should perform their IPS recruiting program in combination with local
IPS officials.” The use of the word should in this SOP implies MSC discretion as to
whether or not to involve the IPS officials in recruiting and vetting.

    Recommendation: The word should in the sections of the MNC–I Corps SOP
    mentioned above that pertain to partnering with Iraqis, needs to be replaced by the
    word shall.

12. Issue: There is no provision for night training for police at any of the recruit training
academies. Assuming that much of the activity of insurgents and criminals occurs at
night, there is a need for night training.

    Recommendation: As part of its on-going reevaluation of the training curricula,
    CPATT should consider adding training modules on basic night operations at the
    recruit training sites.

13. Issue: Coalition-conducted basic training encompasses some testing, although geared
to relatively low levels of comprehension. Even that modest process is not incorporated
in advanced and specialized training—principally that conducted at Adnan Palace in
Baghdad. Some interlocutors opined that incorporation of testing in those courses would
enhance student attention to the subject matter at hand.

    Recommendation: CPATT should consider and possibly incorporate appropriate
    testing in advanced and specialized training courses.

14. Issue: A marked lack of discipline is apparent among the recruits at several of the
training sites. The use of properly trained Iraqi drill instructors would facilitate instilling
discipline and help to create a sense of esprit-de-corps among the cadets.

    Recommendation: In consultation with the MOI, CPATT should assess the
    discipline needs at each sponsored police training academy and develop appropriate
    plans and programs to ensure a properly trained, Iraqi drill instructor cadre is on hand
    to provide guidance and teach discipline to the trainees.



                                        51
Page intentionally left blank




           52
Appendix A — Scope and Methodology

     This assessment was a self-initiated evaluation of the Coalition effort to train and develop
     the Iraqi Police Service. Our review focused on the plans and programs in place for
     training the Iraqi Police Service and an examination of the effectiveness of coordination
     and cooperation between those Department of State and Department of Defense
     organizations responsible for developing, implementing, and conducting police training.

     In accomplishing this assessment, we examined the MNF–I Campaign Plan and related
     orders dealing with Iraqi security training. We interviewed security policymakers and
     implementers of Iraqi police training in the United States as well as in Jordan and Iraq.
     We interviewed key members of the U.S. Embassy in Baghdad, Multinational Security
     Transition Command–Iraq, and the Civilian Police Assistance Training Team, receiving
     numerous, comprehensive briefings from subject matter experts within those
     organizations. We observed basic, advanced, and specialized police training in Jordan
     and at various sites throughout Iraq. We interviewed International Police Trainers,
     International Police Liaison Officers, Iraqi governmental officials, Iraqi police
     instructors, Iraqi police recruits, and veteran policemen. During the course of fieldwork,
     we interviewed over 300 individuals involved in one aspect or another with Iraqi police
     training. Appendix C provides a listing of the key policymakers and organizations
     contacted during the course of this evaluation.

     From October 2004 through February 2005, we researched available data in the
     Washington DC area. As part of early preparation, we convened a panel of subject
     matter experts on police training issues in December 2004. Between February 22 and
     March 5, 2005, we visited the Jordan International Police Training Center.
     Subsequently, we conducted fieldwork in Iraq from March 6 to March 27, 2005.

     Limitations. This assessment was limited to those activities surrounding the training of
     the Iraqi police forces only with no intent to evaluate training for Dignitary Protection
     Services, Border Police, Facilities Protection Service, or Highway Patrol, except where
     training curricula and/or resources among these groups was shared with Iraqi police
     training. Notwithstanding shared resources, the final report of this project focuses only
     on training and equipping the Iraqi Police Service.

     Standard. We performed this assessment in accordance with the standards established
     by the President’s Council on Integrity and Efficiency published in Quality Standards for
     Inspections,” January 2005.

Prior Coverage
     During the past three years, the Coalition Provisional Authority (CPA) and General
     Accountability Office (GAO) have issued four reports relating to the Iraqi Police Service.
     The CPA report is not available online. Unrestricted GAO reports can be accessed over
     the Internet at http://www.gao.gov.


                                            53
CPA
      Coalition Provisional Authority-Interior Ministry report, “Iraq Police: An Assessment of
      the Present and Recommendations for the Future,” Baghdad, May 30, 2003.

GAO
      GAO Report No. GAO-03-792R, “Rebuilding Iraq,” May 15, 2003.

      GAO Report No. GAO-04-0746R, “Iraq’s Transitional Law,” May 25, 2004.

      GAO Report No. GAO-04-902R, “Rebuilding Iraq: Resource, Security, Governance,
      Essential Services, and Oversight Issues,” June 28, 2004.

      GAO Report No. GAO-05-431T, “Rebuilding Iraq: Preliminary Observations on
      Challenges in Transferring Security Responsibilities to Iraqi Military and Police,” March
      14, 2005.




                                           54
Appendix B — History and Background of Iraqi Police

Police Training Under Saddam
           Three levels of police existed under the previous regime: Non-Commissioned Officers
           (NCOs), Assistant Officers, and Officers. 44 At the most basic level, NCOs possessed
           little formal education, normally only completing primary school. When hired, they were
           trained within their provincial area in an unstructured program that could last up to three
           months. Standards and length of training varied widely from province to province. Upon
           graduation, NCOs were responsible for most of the daily contact with Iraqi citizens.
           NCOs were the first responders to calls for service and were responsible for dealing with
           disputes and for the maintenance of public order.

           At the mid-grades, Assistant Officers completed secondary school education, usually
           from the Police High School, and then underwent on-the-job training. They were
           normally assigned to various administrative functions within the Iraqi Police Force. They
           would only respond to serious crimes and only in a supervisory capacity. Their duties
           usually consisted of administrative work for the Officer corps.

           Officers were also secondary school graduates, but were further educated at the Police
           Professional College in Baghdad, undergoing a three-year course of instruction. Upon
           graduation, the Officers received the equivalent of a Bachelor's degree in police science;
           however, the curriculum was steeped in military doctrine and training. After graduation,
           the academy Officers were posted around the country and normally served in the
           assigned region for the rest of their careers. Traditional training in leadership,
           management, and command and staff functions was not institutionalized.

Police Training Developed Under Coalition Provisional Authority (CPA)
           In 2003, the Coalition Provisional Authority (CPA) took the first steps to assist the
           Ministry of Interior (MOI) in developing an Iraqi Police Service (IPS) that would be a
           respected force based on public trust and confidence. Creating this force from the brutal
           and corrupt remnants of the Saddam regime police would probably have required
           dissolution of the entire force and slow rebuilding into a force that echoed the new
           democratic ideals of Iraq. The security situation, however, dictated rapid infusion of
           police into the cities and governorates, a requirement that mandated an accelerated
           training program. To optimize required quantity and equally-important quality, CPA
           designed a program based on the International Criminal Investigation Training Assistance
           Program (ICITAP) “Kosovo” model that would give police recruits eight weeks of
           training. They planned to complement the eight-week basic program with a structured
           on-the-job training program 45 guided by an experienced mentor.

44
     (Note: Iraqi NCOs are unlike U.S. NCOs and a direct comparison should not be made.)
45
     Also known as “Field Training”



                                                      55
     In order to meet the capacity required, two academies were established: the Baghdad
     Public Safety Academy (more recently renamed the Baghdad Police College) and an
     academy in Jordan, outside Amman, the Jordan International Police Training Center
     (JIPTC). Several regional academies were subsequently added.

     The basic training instructional program consisted of two distinct, but integrated,
     components: academy training and field training. New police recruits would spend two
     months at one of the academies, training in modern policing methods. New cadets would
     receive 320 standardized hours of intensive education in modern policing techniques. The
     basic course would include academic and practical training in firearms (pistols),
     defensive tactics, and emergency vehicle operation. The academic instruction also
     included policing in a democracy, constitutional framework, human rights, use of force,
     police ethics and code of conduct, gender issues, community policing, traffic accident
     management, etc.

     For recruits who completed the academy courses, the concept prescribed subsequent
     participation in a structured field training program, focusing on the practical application
     of the coursework and seeking further development of proactive, service-oriented
     policing skills. During this probationary period, newly-graduated cadets were to be
     paired one-on-one with a senior Iraqi Police Service (IPS) Field Training Officer (FTO),
     who would function as a mentor. International Police Advisors (later renamed
     International Police Liaison Officers (IPLOs)) would oversee the program. The concept
     consisted of four phases conducted over a six-month period involving daily, weekly, and
     monthly evaluations by senior IPS FTOs.

     The CPA plan relied upon building a foundation in the classroom, but also counted on the
     structured and mentored training that was to occur in the months following graduation.
     In March 2004, the Civilian Police Assistance Training Team (CPATT) was established,
     and an initial Field Training Coordinator Program was implemented locally in Baghdad.
     Unfortunately, the deteriorating security environment, coupled with a dearth of
     experienced IPS and insufficient numbers of International Police Liaison Officers
     (IPLOs), precluded full implementation of the mentoring program.

Police Training Developed Under Multinational Security Transition
Command–Iraq (MNSTC–I)
     In June 2004 the Multinational Security Transition Command–Iraq was established to
     assume responsibility for all Coalition-sponsored security training for Iraqi Security
     Forces (ISF), including the IPS and the Iraqi Military. CPATT was organizationally
     aligned under MNSTC–I.

     By the end of 2004, it was evident that a viable IPS mentoring program could not be
     established, and that IPLOs would not be able to bridge the gap because of security issues
     and the sheer numbers required. As a result, the curriculum was significantly changed,
     adapting it to prepare the trainees to meet the threats and risks they were going to face as


                                            56
police on the street. Whereas previously, recruits spent 25 percent of the time at the
academy on practical exercises, with the remaining time spent on academics; that ratio is
now roughly reversed. The academic program is being reduced from 40 to 20 subjects
and a modular program creates flexibility to adjust the program in rapid response to
operational lessons learned. Greater emphasis is now placed on critical tactical
operations. All of these instructional areas are reinforced with hands-on field exercises
with the greatest possible realism. In an example of one of the changes being
incorporated, the existing driving track is being modified to accommodate both driving
instruction and scenario-based training on improvised explosive devices. A mock IPS
station is also being constructed to familiarize trainees with the environment they will
encounter in the field. Instead of marksmanship training that focused primarily on
pistols, more extensive AK–47 training is being added.




                                      57
Page intentionally left blank




           58
Appendix C — Principal Interlocutors—Organizations Visited


Department of State                               American Embassy – Amman Jordan
  • Bureau of International Narcotics and
    Law Enforcement (INL)
                                                  American Embassy – Baghdad
  • Bureau of Diplomatic Security, Office of        • Ambassador John Negroponte
    Antiterrorism Assistance (DSS/ATA)              • Deputy Chief of Mission James Jeffrey
                                                    • Director, Iraq Reconstruction
  • Bureau of Diplomatic Security, Office of          Management Office (IRMO),
    Intelligence & Threat Analysis                    Ambassador William Taylor
    (DSS/ITA))                                      • Director, Pol/Mil, Ambassador Ron
                                                      Neumann
  • Bureau of Near East Affairs, Office of          • INL Post Director, William Francisco
    Iraq (NEA/I)
                                                  Iraqi Ministry of Interior
Department of Defense                               • Minister of Interior, Falah al Naqib
                                                    • Deputy Minister of Interior (Finance),
  • Defense Support Office–Iraq
                                                      Ms. Hala Shakr

Department of Justice                             Multinational Force–Iraq (MNF–I)
  • Federal Bureau of Investigation (FBI),          • General George W. Casey, Jr.,
    International Training & Assistance Unit          Commanding General
  • Drug Enforcement Administration               Multinational Security Transition
    (DEA), International Training Section         Command–Iraq (MNSTC–I)
                                                    • LTG David H. Petraeus, Commanding
  • Criminal Division, International Criminal         General
    Investigations Training Assistance              • MG Joseph F. Fil, Jr., Commander,
    Program (ICITAP)                                  Civilian Police Assistance Training Team
                                                      (CPATT)
  • Bureau of Alcohol, Tobacco, Firearms
    and Explosives (ATF)                          Baghdad Police College

Government Accountability Office                  Jordan International Police Training
(GAO)                                             Center (JIPTC)
  • International Affairs Directorate
                                                  Regional Police Training Facilities
National Security Council
                                                  Local Iraqi Police Stations (Baghdad)
Central Intelligence Agency                         • Chief of Station Police, Baghdad
                                                    • Chief of Patrol Police, Baghdad



                                             59
Page intentionally left blank




           60
Appendix D — Acronyms

AFIS         Automated Fingerprint Identification System
ATF          Alcohol, Tobacco, Firearms and Explosives (DOJ)
BDP          Bureau of Dignitary Protection
BPC          Baghdad Police College (formerly Baghdad Public Service Academy)
CIF          Civil Intervention Force
CJTF–7       Coalition Joint Task Force 7
CPA          Coalition Provisional Authority
CPATT        Civilian Police Assistance Training Team
DEA          Drug Enforcement Administration (DOJ)
DoDIG        Department of Defense Office of Inspector General
DOJ          Department of Justice
DoSIG        Department of State Office of Inspector General
ERU          Emergency Response Unit
FBI          Federal Bureau of Investigation
FOB          Forward Operating Base
FRAGO        Fragmentary Order
FTO          Field Training Officer
             International Criminal Investigative Training Assistance Program
ICITAP
             (DOJ)
IED          Improvised Explosive Device
IHP          Iraqi Highway Patrol
IIG          Iraqi Interim Government (June 2004 – April 2005)
ILEA         International Law Enforcement Academy
             Bureau for International Narcotics and Law Enforcement Affairs
INL
             (DoS)
IP           Iraqi Policeman
IPLO         International Police Liaison Officer
IPS          Iraqi Police Service
IPT          International Police Trainer
IRMO         Iraq Reconstruction Management Office
IRMO–MOI     Iraq Reconstruction Management Office – Ministry of Interior
IRRF         Iraqi Relief Reconstruction Fund
ITG          Iraqi Transitional Government (April 2005)
JIPTC        Jordan International Police Training Center
MNC–I        Multinational Corps – Iraq
MNF–I        Multinational Force – Iraq
MNSTC–I      Multinational Security Training Command – Iraq
MOD          Ministry of Defense (Iraq)


                                61
MOI         Ministry of Interior (Iraq)
MP          Military Police
MSC         Major Subordinate Command
NSPD        National Security Presidential Directive
P3          Police Partnership Program
PCO         Project and Contract Office (Iraq)
POB         Public Order Brigade/Battalion
PSMR        Police Station Monthly Report
P–SWAT      Provincial Special Weapons and Tactics
QC          Qualifying Committee (Iraq)
SIGIR       Special Inspector General for Iraq Reconstruction (formerly CPA-IG)
SWAT        Special Weapons and Tactics
TIP         Transition and Integration Program
USAID       United States Agency for International Development
USCENTCOM   United States Central Command




                                62
Appendix E — National Security Presidential Directive 36




                              63
64
65
Page intentionally left blank




           66
Appendix F — Report Distribution


Department of Defense

Office of the Secretary of Defense
Under Secretary of Defense (Policy)
      Deputy Undersecretary of Defense (Policy Support)
              Director, International Security Programs**
      Assistant Secretary of Defense (International Security Affairs)
              Director, ME/NA
              Director, Northern Gulf Affairs**
      Assistant Secretary of Defense (Special Operations & Low Intensity Conflict)
              Principal Director, Stability Operations

Joint Chiefs of Staff
Inspector General, Joint Staff
Director for Operations (J-3)
Director for Logistics (J-4)
Director for Strategic Plans & Policy (J-5)**
Director for Force Structure, Resources & Assessment (J-8)

Combatant Commands
Commander, U.S. Central Command
     Inspector General, U.S. Central Command**
     Commander, Multinational Force – Iraq
            Inspector General, Multinational Force – Iraq**
            Commander, Multinational Security Transition Command – Iraq**
                   Civilian Police Assistance Training Team**
            Commander, Multinational Corps – Iraq

Department of State

Office of the Secretary of State
Under Secretary of State for Political Affairs (P)
      Assistant Secretary for Near Eastern Affairs (NEA)**
Under Secretary for Global Affairs (G)
      Assistant Secretary, International Narcotics and Law Enforcement Affairs (INL)**
              Jordan International Police Training Center (JIPTC)**
Under Secretary for Arms Control and International Security Affairs (T)


                                            67
      Assistant Secretary, Political-Military Affairs (PM)
Counselor for the Department (C)

Embassies
U.S. Embassy, Amman, Jordan
      Chargé d’Affaires

U.S. Embassy, Baghdad, Iraq
      Ambassador
      Deputy Chief of Mission
      Political Affairs
      Political-Military Affairs**
      Iraq Reconstruction Management Office**

Department of Justice
Office of the Inspector General
Criminal Division
       International Criminal Investigative Police Assistance Team (ICITAP)**
Federal Bureau of Investigation (FBI)
       International Training & Assistance Unit, FBI Academy
Drug Enforcement Administration (DEA)
       International Training Section, DEA Academy

Other Federal Organizations
National Security Council
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and Ranking
   Minority Member
Senate Armed Services Committee
Senate Foreign Relations Committee
Senate Subcommittee on International Operations and Terrorism, Foreign Relations Committee
House Armed Services Committee
House International Relations Committee
House Subcommittee on Middle East and Central Asia, International Relations Committee

                                    ** Recipient of Draft Report




                                              68
Appendix G — Iraq Reconstruction Management Office (IRMO–
    MOI) Comments




                           69
70
71
72
Appendix H — Civilian Police Assistance Training Team Comments




                             73
74
75
76
77
78
79
80
81
Page intentionally left blank




           82
Appendix I — International Criminal Investigations and Training
    Assistance Program (ICITAP) Comments




                              83
84
85
86
87
88
89
90
91
92
93
Page intentionally left blank




           94
Appendix J — Team Members


     The Office of the Assistant Inspector General for Inspections of the Department of State,
     and the Office of the Deputy Inspector General for Inspections and Policy of the
     Department of Defense, Inspections and Evaluations, prepared this report. Personnel
     who contributed to this report are listed below:

Department of State:
     Ambassador David E. Zweifel, DoSIG Team Lead
     Joseph A. Guba, Senior Financial Resource Analyst
     Robert P. Simons, Senior Security Investigations Specialist

Department of Defense
     Joe A. Baker, Senior Program Analyst, DoDIG Team Lead
     Lieutenant Colonel Donald M. Bohn, USA, Security Training Specialist
     Major Richard T. Higdon, USAF, Inspector/Analyst
     Stanley E. Meyer, Chief, Joint Operations Division
     Carol L. Brink-Meissner, Technical Assistant




                                          95
GENERAL INFORMATION

Forward questions or comments concerning the Interagency Assessment of Iraq Police Training
to:

                                    U.S. Department of State
                                   Office of Inspector General
                                  Washington, D.C. 20520-6817

                                                Or

                               Inspections & Evaluation Directorate
                 Office of the Deputy Inspector General for Inspections & Policy
                  Office of the Inspector General of the Department of Defense
                                      400 Army Navy Drive
                                   Arlington, VA 22202-4794
                                   crystalfocus@dodig.osd.mil


Additional copies of this report are available at the above addresses or online at
eitherhttp://oig.state.gov or http://www.dodig.mil.

:




                                               96
a!&--    --   -
                       SECURITY DEMOCRACY PROSPERITY
        United stat& ~ipartrnentof State and the Broadcasting Board of Governors
                              Office of Inspector General
